Office of Inspector General

                  Semiannual Report
                      to the Congress
                                             October 11998 thru March311999




F e d e r a l      D e p o s i t   I n s u r a n c e   C o r p o r a t i o n
                                     In our last semiannual report, I         financial services industry, we also
                                     acknowledged the 20th anniversary        issued a Material Loss Review of the
                                     of the passage of the Inspector          Failure of BestBank, Colorado, during
                                     General (IG) Act. On April 17, 1999,     the reporting period. The OIG attrib-
                                     our office marked another mile-          uted BestBank’s failure to losses in a
                                     stone—the 10th anniversary of the        risky sub-prime credit card lending
                                     Board of Directors’ establishment of     program. We made recommenda-
                                     the FDIC Office of Inspector General     tions in this “lessons learned” report
                                     (OIG). Both of these occasions have
               Inspector General’s

                                                                              to strengthen supervisory practices
                                     provided us an opportunity to reflect    and prevent recurrences of the types
                                     on the past and our evolution as an      of problems that led to losses now
                                     organization. However, as is true of     totaling more than $170 million. The
                                     the Corporation, the most important      Corporation either agreed with or
                                     focus of our office is on the future.    agreed to take alternative action that
                                                                              meets the intent of 10 of the
                                     At a time when society as a whole is     11 recommendations we made. We
                                     anxiously anticipating the arrival of    recommended that the Corporation
                                     Year 2000, the Corporation is aggres-    implement a policy where examiners
               Statement




                                     sively addressing the risks associ-      take prompt action to address allega-
                                     ated with the uncompromising dead-       tions of potential wrongdoing in open
                                     line of January 1, 2000. In a speech     banks, including referrals of such
                                     to all FDIC employees on February 4,     allegations to the regional director,
                                     1999, Chairman Tanoue spoke of           regional counsel, and, in certain
                                     Year 2000 as the number one safety       circumstances, the OIG. DOS man-
                                     and soundness priority. She also dis-    agement does not agree with that
                                     cussed two other corporate priori-       portion of our recommendation con-
                                     ties: understanding the rapidly          cerning referring allegations to the
                                     changing financial services environ-     OIG. It believes that if there is a reg-
                                     ment and promoting diversity in the      ulatory problem, DOS and the Legal
                                     workplace. The OIG has con-              Division can handle it; if it is a crimi-
                                     ducted its work over the past            nal problem, the Federal Bureau of
                                     6 months with a view toward these        Investigation is set up to handle it.
                                     and other related corporate issues,      Further, DOS's view is that investiga-
                                     as discussed in detail in this report.   tions of alleged wrongdoing by open
                                     As part of our most significant work     banks, in most instances, is a pro-
                                     during the reporting period, we have     gram responsibility of DOS, not the
Gaston L. Gianni, Jr.                been proactively involved in the         OIG.
Inspector General                    Corporation’s Year 2000 activities—
                                     both those involving the institutions    We disagree and believe that under
                                     that the FDIC supervises and its own     the IG Act, the OIG has responsibility
                                     internal systems. We issued several      for investigating certain matters,
                                     memorandums and passed along             including possible criminal obstruc-
                                     best practices suggestions to the        tion of an FDIC examination. Under
                                     Division of Supervision (DOS) during     the Act, I am required to report that
                                     the reporting period. Our principal      disagreement to the Congress in this
                                     goal is to assist the Corporation in     semiannual report. We have been
                                     successfully handling the imminent       meeting with management and will
                                     century date change.                     continue to work with them to
                                                                              resolve this disagreement.
                                     In connection with the priority of
                                     understanding the rapidly changing




                                                       2
As for the third corporate priority of    ship is essential. The Chairman had       mits them to continue to serve until
promoting diversity, we fully support     just taken office as of the date of       their successors have been
the Corporation’s diversity definition    our last semiannual report. She has       appointed and qualified. The term of
and related initiatives. We have also     been dedicated in her pursuit of the      office as director left vacant by
conducted our own study of diversity      corporate mission and especially vig-     Mr. Neely will expire approximately
within the OIG and will soon be issu-     ilant regarding Year 2000 efforts.        15 months later. It is critical that this
ing a report to the House                 She supports the work of my office,       vacancy be filled as soon as possible
Subcommittee on Veterans’ Affairs,        commenting in recent testimony on         to allow for an ample learning period,
Housing and Urban Development,            Year 2000 that our oversight “is an       ensure continuity, and maintain
and Independent Agencies,                 important part of the FDIC’s quality      needed historical perspective in the
Committee on Appropriations. This         assurance of its Year 2000 effort,        event the Chairman and Vice
study was done in response to             and we welcome the views and sug-         Chairman leave office upon the expi-
language contained in the                 gestions for improvement that the         ration of their terms. I understand
Subcommittee’s report on the fiscal       OIG has provided.” The Chairman           that a name has been submitted for
year 1999 appropriation.                  has also endorsed our authority to        the President’s consideration. I am
                                          establish an independent personnel        hopeful that an appointment will be
In addition to focusing on these prior-   function in the OIG and we are mak-       made soon so that a full complement
ities, our office is looking inward and   ing progress to that end, having          of board members can deliberate sig-
closely examining the way we con-         recently hired a Deputy Assistant         nificant issues and make critical deci-
duct our work. Throughout this            Inspector General for Human               sions in the best interest of the
process we are seeking to be true to      Resources. We appreciate the              FDIC. A board operating at full
the mission of an independent OIG,        Chairman’s support and will continue      strength is vital to the Corporation.
as articulated 20 years ago in the IG     to work cooperatively with her.
Act; at the same time we are con-                                                   In closing, I wish to acknowledge
stantly looking ahead for opportuni-      Since taking office, the Chairman has     two departures on my own senior
ties to learn, improve, and maximize      designated Vice Chairman Hove as          management staff during the report-
our value to the Corporation. We          the person that I report to directly.     ing period. Patrick Noble, Assistant
have administered a client survey to      Vice Chairman Hove also serves as         Inspector General for Investigations,
obtain feedback from FDIC senior          head of the FDIC Audit Committee          and Lew Sherman, Deputy Assistant
management and are currently con-         and, along with the Chairman, serves      Inspector General for Investigations,
sidering that input to be able to         on the FDIC Board of Directors. Five      retired from the FDIC after more
thoughtfully respond to it. Our own       members comprise the FDIC’s Board         than 27 and 22 years of service,
senior management team has been           of Directors: the FDIC Chairman, the      respectively. I am grateful for the
engaged in an in-depth review of our      Vice Chairman, a third appointed          contributions these individuals made
work processes and products. In the       member, the Director of the Office        to the success of our office. We
spirit of the Government                  of Thrift Supervision, and the            have recently hired Samuel Holland
Performance and Results Act, we           Comptroller of the Currency. The          to serve as Assistant Inspector
have also evaluated our success in        Board has operated with only four         General for Investigations. We wel-
meeting our 1998 performance goals        members since the departure of for-       come him to the OIG and look for-
and have devised a new Strategic          mer Director Joseph Neely (the third      ward to the positive impact he will
Plan and related performance and          appointed member) in September            have on our team as we confront the
operating goals for the future. I am      1998. I am concerned about a              challenges ahead.
confident that as we move forward,        potential internal leadership void that
all of these efforts will serve us and,   may manifest itself later if action is
more importantly, the Corporation         not taken to address this issue.
very well.                                Specifically, the terms of office as
                                          directors of both Chairman Tanoue         April 30, 1999
Given the corporate priorities and        and Vice Chairman Hove will expire
corresponding challenges facing the       in October 2000, although the
FDIC, strong and sustained leader-        Federal Deposit Insurance Act per-




                                                            3
                                                                 the FDIC’s many contracting
                                                                 activities are also essential to the
                                                                 Corporation’s success.

                                                                 Major downsizing over the past
                                                                 4 years and natural attrition have
                                                                 greatly impacted the FDIC work-
                                                                 place. The loss of human resources
                                                                 has resulted in corresponding losses
                       Major Issues                              of leadership and, in some cases,
                                                                 expertise and historical knowledge.
                       The Major Issues section of our
                                                                 The Corporation is also challenged
                       report focuses on the challenges the
                                                                 by the changing composition of its
                       FDIC faces as it works to accom-
                                                                 workforce, which is becoming
                       plish its mission. The Corporation
                                                                 increasingly diverse. The FDIC must
                       must address ever-present risks to
                                                                 ensure that its corporate diversity
                       the insurance funds, including the
                                                                 plan is fully carried out and foster an
                       upcoming century date change,
                                                                 environment that engenders the
                       while supervising the financial insti-
                                                                 Corporation's definition of diversity.
                       tutions it regulates and protecting
         Overview




                                                                 Finally, under the provisions of the
                       consumers’ rights. The FDIC must
                                                                 Government Performance and
                       also be mindful of lessons it can
                                                                 Results Act, for all of these major
                       learn from major bank failures, as
                                                                 issues, the Corporation must estab-
                       we discuss in our Special Feature on
                                                                 lish goals, measure performance,
                       the failure of BestBank. With
                                                                 and report on accomplishments.
                       respect to managing and liquidating
                       assets, the Corporation must always
                                                                 Our Major Issues section also dis-
                       seek to maximize recoveries and be
                                                                 cusses the OIG’s work to help the
                       particularly vigilant regarding pro-
                                                                 Corporation achieve success in carry-
                       grams where large sums of money
                                                                 ing out its programs and operations.
                       are at stake and the FDIC does not
                                                                 There are multiple examples of our




Major                                                 OIG
Issues              Investigations                    Organization

                       control the entire management and             cooperative efforts with the Audit
                       disposition process. In conducting            Committee, FDIC management, and
                       its information technology activities         colleagues at the U.S. General
                       in 1999, the Corporation needs to             Accounting Office, the Federal
                       follow sound system development               Financial Institutions Executive
                       life cycle procedures, carefully bud-         Council, and other Offices of
                       get and track costs and perfor-               Inspector General as we work with
                       mance, and ensure adequate sys-               them to maximize our contribution to
                       tem security. Strong controls over            the FDIC. (See pages 8 to 29.)




                                         4
                                        OIG Organization

                                        As the FDIC OIG nears its 10th
                                        anniversary, its mission remains
                                        constant: promoting the economy,
                                        efficiency, and effectiveness of
                                        FDIC programs and operations and
                                        protecting against fraud, waste,
                                        and abuse. In so doing, the OIG
                                        seeks to assist and augment the
                                        FDIC’s contribution to the stability
                                        of and public confidence in the
                                        nation’s financial system. The OIG
Investigations                          Organization section of our report
                                        briefly discusses the evolving role
The operations and activities of the    of our organizational components in
OIG's Office of Investigations are      achieving that mission and visually
described beginning on page 30 of       depicts some of the statistical
this report. As detailed in the         results of our work over the past
Investigations section, the Office of   five reporting periods. This section
Investigations' work this period led    references some of the advisory
to fines, restitution, and monetary     assistance we have provided to          Appendixes
recoveries totaling over $3.7 mil-      management during the reporting
lion. Cases leading to those results    period, including our participation     We list the IG Act reporting require-
included investigations of fraud        on the Corporation's Business           ments and define some key terms
                                                                                in this section. The appendixes
by contractors, concealment of          Continuity Working Group and
                                                                                also contain much of the statistical
assets by FDIC debtors, and fraud       meetings of the FDIC Diversity          data required under the Act and
against open and closed financial       Steering Committee. This part of        other information related to our
institutions. Some of the investiga-    our report also captures some of        work this period. (See pages 46
tions described reflect work we         our most significant internal initia-   to 59.)




have undertaken in partnership with     tives this period, including our
other law enforcement agencies          efforts to become a “learning
and with the cooperation and assis-     organization,” our administration
tance of the FDIC’s Division of         of internal and external customer
Resolutions and Receiverships. To       satisfaction surveys, our internal
ensure continued success, the OIG       OIG diversity study, and our
continues to work collaboratively on    efforts to improve OIG audit and
a number of task forces and work-       investigative information systems.
ing groups.                             (See pages 38 to 45.)




                                                          5
Highlights
           The Office of Audits and Office of Congressional Relations and
       ●


           Evaluations issue a total of 33 reports with questioned costs of
           $1.86 million and funds put to better use of $150,000. Management
           disallows $1.75 million of costs questioned.
           OIG reports include 133 non-monetary recommendations to improve
       ●




           corporate operations. Among these are recommendations to
           strengthen the risk-focused examination process; enhance oversight
           of contractors; revise corporate policy and guidance; clarify perfor-
           mance reporting criteria; adhere to sound system development prac-
           tices; maintain and update project cost-benefit information; and
           improve the integrity, security, and documentation of systems.
       ●




           OIG investigations result in 10 convictions; 9 indictments/informations;
           4 arrests; and over $3.7 million in total fines, restitution, and monetary
           recoveries.
       ●




           The OIG continues and expands partnering activities with FDIC
           management, the Office of Internal Control Management, the U.S.
           General Accounting Office, the President’s Council on Integrity and
           Efficiency, the Federal Financial Institutions Examination Council, and
           the Department of Justice.
       ●




           OIG staff reviews 6 proposed federal regulations and 17 proposed
           FDIC policies and responds to 21 requests and appeals under the
           Freedom of Information Act and the Privacy Act.
       ●




           In keeping with Chairman Tanoue's acknowledgement that the OIG
           has the authority to make its own personnel decisions pursuant to the
           Inspector General Act, the OIG furthers its plan to establish an
           independent, full-service personnel function and establishes a position
           to lead that activity.
           The OIG continues efforts with Division of Resolutions and
       ●




           Receiverships staff to pursue court-ordered restitution. More than
           $1.2 billion is owed to the FDIC. To date, about $139 million has been
           recovered.
       ●




           The FDIC OIG serves as lead agency on the review of the Federal
           Financial Institutions Examination Council's training program.
       ●




           The OIG continues its major audit effort of corporate Year 2000 (Y2K)
           activities and issues memoranda and best practices suggestions to the
           Division of Supervision related to internal and external Y2K matters.
           OIG and U.S. General Accounting Office staffs continue their joint
       ●




           effort to audit the Corporation’s financial statements, with the OIG
           playing a greater role.
       ●




           The OIG coordinates with management on a number of projects relat-
           ing to the major issues facing the Corporation, including participating in
           the FDIC's Business Continuity Working Group, providing advice on
           contracting issues to the Acquisition and Corporate Services Branch,
           and consulting with management on Government Performance and
           Results Act-related issues.
       ●




           The OIG carries out significant internal initiatives, including the launch
           of the “learning organization” concept, completion of an external sur-
           vey of client satisfaction, and implementation of the OIG Intranet
           web site.




                                                  6
                                                               Inspector General’s Statement 2

                                                                                  Overview    4

                                                                                 Highlights   6

                                                                               Major Issues 8

                                                                              Investigations 30

                                                                           OIG Organization 38

                                                           Reporting Terms and Requirements 46
Table of Contents


                                                                                  Appendix I
                                                      Statistical Information Required by the
                                                  Inspector General Act of 1978, as amended 48

                                                                                 Appendix II
                                                              Reports Issued by the Office of
                                                     Congressional Relations and Evaluations 57

                                                                               Appendix III
                                                         Statistical Information Related to
                                                 OIG Completion of RTC Contractor Reviews 58


                       T a b l e s
                    1 Significant OIG Achievements
                      October 1998 -March 1999       39
                    2 Nonmonetary
                      Recommendations                45
                    3 OIG Review of
                      Legislation and Regulations
                      (October 1, 1998 - March 31, 1999)
                                                     45




                       F i g u r e s
                    1 Reports Issued and Investigations
                      Closed                          44
                    2 Questioned Costs/Funds Put to
                      Better Use                    44
                    3 Fines, Restitution, and Monetary
                      Recoveries Resulting from OIG
                      Investigations                  44
                   Under the IG Act, the FDIC OIG is         the FDIC symbol displayed in the
                   charged with promoting the                branches of banks across America
                   economy, efficiency, and                  provides peace of mind to the
                   effectiveness of FDIC programs            public. When despositors see this
                   and operations and protecting             symbol, they know that their
                   against instances of fraud, waste,        insured deposits are safe. For
                   and abuse that can threaten the           66 years, the FDIC's mission has
                   Corporation’s success. In that            been to maintain stability in the
                   regard, the OIG has identified a          nation’s financial system and
                   number of major issues facing the         sustain the confidence of the
                   Corporation. The results of our           public. Although the challenges to
                   work over the past 6 months are           stability have changed through the
                   presented in the context of these         years, the Corporation's goal has
                   issues. The major issues are              remained constant.
                   closely related to the Corporation’s
                   mission: to contribute to stability       Y2K Remains Top Priority
                   and public confidence in the              Currently, the most immediate risk
Major Issues




                   nation’s financial system by              to the banking industry and the
                   insuring deposits, examining and          FDIC are those that may emerge
                   supervising financial institutions,       due to the coming of Year 2000
                   and managing receiverships. We            (Y2K). The FDIC has identified Y2K
                   have conducted our work over the          as “the number one safety and
                   past 6 months to address these            soundness priority” and has
                   major issues and to add value in full     worked diligently to address risks
                   support of the corporate mission.         related to the century date change.
                                                             According to the Chairman, most of
                   Addressing Risks                          the Y2K focus to date has been on
                   to the Insurance Funds                    necessary system fixes. The
                                                             Chairman has publicly claimed that
                   As the FDIC Chairman emphasized           97 percent of the banks are on
                   in an address to all corporate            track in making sure their computer
                   employees on February 4, 1999,            systems are ready for the date




                                               Supervising Insured Institutions
               Addressing Risks                and Protecting Consumer            Maximizing Returns
               to the Insurance Funds          Interests                          from Failed Institutions




                                        8
      change. She has stated that the               assigned to banks as a result of          be improved by enhanced controls.
      FDIC must also continue                       DOS examinations are consistent,          Specifically, we noted that the
      aggressive efforts in the areas of            accurate, supported, and timely.          reliability of data in DOS’s Y2K
      examination, supervision, and                 During our review we discussed            tracking system could be enhanced
      contingency planning. The                     our results with DOS and provided         by revising default rating settings in
      Chairman's message to the public              an interim communication to advise        the system and by implementing an
      has been optimistic: “There is no             DOS of our conclusions as of              effective audit trail and reconcil-
      safer place to keep your money                February 24, 1999. We pointed out         iation process for data entered into
      than in a federally insured account           several areas that warranted              the system. Additionally, we
      at a bank or savings institution.“            management attention.                     suggested that the timely communi-
      As Y2K draws ever closer, the                                                           cation of examination results and
      Corporation's greatest challenge is           DOS initially divided its Y2K             having an effective process for
      to ensure that this statement                 supervisory efforts into two              tracking this information could
      stands the test of time.                      phases. Phase I focused on the            assist the institutions in initiating
                                                    institutions' awareness,                  timely and meaningful corrective
      The OIG has focused its Y2K work              assessment, and renovation                action and promote meaningful
      both on the FDIC's Y2K                        efforts. Phase II focused on the          examination follow-up.
      supervisory efforts and on its                validation, implementation, and
      activities related to the readiness           contingency planning efforts at           In response to our memorandum,
      of the Corporation's internal                 financial institutions. We reviewed       the FDIC incorporated a number of
      systems. During this reporting                89 Phase II examinations of FDIC-         our suggestions into guidance for all
      period we issued two memoranda                supervised financial institutions and     regional directors with further distri-
      to management addressing these                questioned the accuracy,                  bution to examiners. These
      areas.                                        completeness, and consistency of          included our suggestions regarding
                                                    14 of the 89 examinations. Our            an independent, documented
      In a real-time mode, we have been             work focused on identifying               review process for workpapers;
      reviewing the FDIC's efforts to               systemic weaknesses that may              elimination of the suggested
      ensure Y2K readiness by the                   impact DOS's Y2K efforts, and we          24-staff-hour target for completing
      financial institutions it supervises.         offered suggestions to DOS to             Phase II examinations; confirmation
      The Division of Supervision (DOS)             address possible systemic issues.         that examination conclusions are
      primarily administers the FDIC's                                                        fully developed and supported;
      activities in this area with direction        We suggested that enhanced                enhanced rating criteria; and more




                                               Ensuring Sound Controls
Managing                                       and Oversight                    Operating Effectively              Establishing Goals
Information Technology                         of Contracting Activities        in a Changing Environment          and Measuring Results

      from an inter-divisional Y2K                  guidance regarding the assignment        timely communication of
      Oversight Committee. The                      of ratings, increased review of          examination results. DOS is also
      objectives of our review are to               examination reports and working          working to address our concerns
      determine whether the policies and            papers, and increased emphasis on        related to revising default rating
      procedures developed by the FDIC              examination thoroughness would           settings, establishing audit trails,
      and the Federal Financial                     improve the FDIC’s assurance that        and implementing controls to track
      Institutions Examination Council              its information regarding the status     the timely issuance of transmittal
      (FFIEC) will ensure that FDIC-                of supervised institutions was           letters.
      supervised financial institutions             consistent and accurate.
      have implemented a structured                                                          Subsequent to our review, in a
      approach to becoming Y2K-                     We also communicated two other           March 15, 1999 memorandum to
      compliant and that Y2K ratings                conditions that we believed could        the Chairman we stated that we




                                                                           9
believed, overall, that the Y2K           documentation preparation, and          Banking activities related to
supervisory program to date has           development. Once these cost            cyberbanking, electronic cash, and
been effective. We will continue to       estimates were determined,              other highly technical financial
work closely with DOS as it enters        management would more defini-           delivery systems also pose
Phase III of the Y2K readiness            tively know what it would cost to       increasing risks that may impact
assessment process. During this           provide effective business              the safety and soundness of the
phase, according to DOS policy,           continuity for critical services.       banking industry and, consequently,
examiners should review financial                                                 the deposit insurance funds.
institutions’ ongoing responsibilities,   In response to the memorandum,          Additionally, personal bankruptcies,
which include vendor and service          the assistant director, Millennium      syndicated lending, international
provider due diligence, business          Information Technology Strategies,      investments, and credit card
resumption contingency planning,          returned many of the contingency        lending are areas where adverse
customer awareness initiatives,           plans to respective divisions and       trends could cause losses to the
liquidity assessment and planning,        offices for correction based on the     FDIC and banking industry. The
and credit risk analysis and              OIG's input. He requested that          Corporation must guard against
monitoring. Examiners should also         action be taken by January 31,          these risks and at the same time
ensure that institutions continue to      1999; however, due to the Y2K           continue to ensure that consumers
report regularly to their boards of       testing workload, the deadline for      have fair and equal access to
directors on the status of Y2K            most divisions and offices was          financial services.
readiness efforts.                        extended to March 31,1999. We
                                          will continue to monitor the            Another key consideration for the
Earlier in the reporting period, we       Corporation's progress.                 FDIC as insurer is to ensure that
issued a memorandum to FDIC                                                       the risk-based premium system
management on the Corporation's           Other Risks Require Vigilance           avoids an excess build-up of risk.
internal efforts to ensure Y2K            The Corporation cannot afford to        The Chairman has urged FDIC staff
readiness. Our memorandum                 limit its focus to Y2K. It must         to make sure the premium system
communicated the results of our           remain alert to emerging risks and      reflects what the risk-focused
review of the FDIC's development          adapt to a rapidly changing financial   supervisory process indicates.
of contingency plans and related          services marketplace. In terms of       According to the Chairman, the
procedures. We suggested that             size, complexity, and sensitivity to    Corporation will be looking to
the contingency plans for the             the global marketplace, banks have      identify banks whose overall
FDIC's 39 mission-critical                changed greatly over the past           condition may be good but whose




applications needed to be revised         5 years. The Chairman has urged         practices make them “outliers“
to include dates by which the             the employees of the FDIC to find       with respect to underwriting,
Corporation would develop and test        better ways to understand               concentration of risk, or undisci-
procedures, train users, develop          increasingly large, complex             plined growth. Once supervisors
documentation, and deploy                 institutions; the businesses they       identify these banks, the
software. To ensure adequate              conduct; and the risks they pose.       supervisors need to be sure that
information for management                Two fundamental questions arise:        the risk-based premium system
decision-making, we suggested             (1) what companies should be            reflects the additional risk these
that the plans should also include        covered by the FDIC's “safety net,”     institutions pose to the rest of the
itemized cost estimates for               and (2) how would the Corporation       industry.
contingency procedure                     deal with a “megabank” that is in
development, testing, user training,      trouble or fails?




                                                           10
OIG Efforts to Mitigate Risks            Federal Reserve Board and the          nationwide feedback on DOS’s
Continue                                 Conference of State Bank               progress in implementing the risk-
In our last semiannual report, we        Supervisors, began implementing a      focused examination process. As a
noted two ongoing audits in the area     new risk-focused examination           result, we recommended that the
of Addressing Risks to the               process designed to target             director of DOS take the following
Insurance Funds that we have             functions that pose the greatest       actions:
subsequently completed during the        risk exposure to the bank. Rather
current reporting period. These          than following the traditional         • Develop and communicate the
audits, discussed below, represent       approach of reviewing a large            program’s goals and objectives to
                                                                                  examiners to convey management’s
two of the OIG's most significant        sample of loans, this approach first     specific expectations for the
products this period.                    requires the examiner to identify        processes and outcomes of the risk-
                                         and test controls within the bank        focused examination process.
BestBank Causes over                     and then to modify the sample
$170 Million Loss to                     selection as appropriate. This         • Clarify DOS’s policy and instructions
Insurance Fund                           targeted examination approach is         to examiners regarding adequate
We conducted a material loss review      intended to focus examination            documentation of exam modules.
of the failure of BestBank, Boulder,     resources on the areas of greatest
Colorado, as required by law.            risk within a bank, thereby            • Develop a supervisory review
Section 38(k) of the Federal Deposit     improving the effectiveness of the       process.
Insurance (FDI) Act, effective July 1,   examination process without
1993, requires the OIG to review the     requiring increased resources.         • Provide a refresher course to all
supervision of FDIC-supervised                                                    field examiners on the use of the
                                                                                  software used to conduct the
banks that cause a material loss         During this reporting period, the        exams.
(generally defined as over               OIG issued a report on the FDIC's
$25 million) to a deposit insurance      implementation of the risk-focused     • Develop a comprehensive
fund. In the case of BestBank,           examination process. We                  evaluation system that systemat-
losses were originally estimated at      concluded that the risk-focused          ically monitors and assesses
$28 million. In fact, losses in excess   process was not being imple-             DOS’s progress in achieving
of $170 million have been booked so      mented by examiners as it was            desired risk-focused goals and
far. We issued a report that             intended by (DOS) headquarters           objectives and uses evaluation
assessed why the institution's           management. Examiners were               results to improve program
problems caused a loss and made          unclear as to the goals and              processes and products.




recommendations to help prevent          objectives of the new approach,        Throughout this review, we kept
any such losses in the future. (See      and risk-focused procedures were       DOS apprised of our findings so it
next page for Special Feature on         seldom being implemented as            could have real-time feedback on
BestBank.)                               designed. Examiners were not           the program's implementation.
                                         using the automated software           Approximately 2 months before the
Risk-Focused Exam Process Not            because they felt it was too           draft report was issued, we
Implemented as Intended                  cumbersome and was adding to           provided our preliminary
A second report issued during the        the time and effort necessary to       observations to DOS management
reporting period addressed the           complete bank examinations. In         for discussion at a regional
FDIC's risk-focused examination          addition, DOS management had not       directors’ conference. In his
process. On October 1, 1997, the         developed a systematic approach        response to the draft report, the
FDIC, in conjunction with the            for measuring and obtaining            director of DOS agreed with the




                                                          11
                  \
                  BestBank Material Loss Review


                                 In January 1999, 6 months after the                      has not been completed and additional
                                 closing of BestBank, Boulder,                            losses may be forthcoming.
                                 Colorado, we reported that the Division
                                 of Supervision’s (DOS) oversight could                   The Colorado State Banking Board
                                 have been more effective in controlling                  closed BestBank on July 23, 1998 with
                                 BestBank’s undisciplined growth,                         an initial estimated loss to the BIF of
                                 concentration in unsecured subprime                      $28 million. In accordance with
                                 lending, and poor underwriting                           section 38(k) of the Federal Deposit
                                 practices. DOS’s supervisory oversight                   Insurance Act, we initiated a material
Special feature




                                 was severely hampered by bank                            loss review to (1) determine the cause
                                 management’s actions and by the                          of the bank’s failure and (2) evaluate
                                 examiners’ restricted access to the                      the FDIC’s supervision of the
                                 bank’s third-party servicer, Century                     institution.
                                 Financial Group (Century). In addition,
                                 DOS missed opportunities to take                         We determined that BestBank's
                                 more timely and effective supervisory                    demise was attributable to bank
                                 actions at critical junctures in the                     management's failure to operate the
                                 bank’s history. BestBank’s failure is                    institution in a safe and sound manner,
                                 attributable to a                                                          which led to substantial
                                 concentration of                                                           losses in the bank’s
                                 assets in a high-risk                                                      high-risk unsecured
                                 unsecured credit card                                                      credit card travel
                                 travel program that                                                        program. BestBank
                                 sustained substantial                                                      initiated the credit card
                                 losses. Century                                                            travel program in 1996
                                 exercised significant                                                      through telemarketing
                                 control over the credit                                                    efforts that targeted
                                 card program and                                                           subprime2 borrowers.
                                 applied $20 credits in                                                     The telemarketed
                                 an apparent attempt                                                        package included a
                                 to make delinquent                                                         travel club
                                 accounts appear                                                            membership, which
                                 current.1 DOS was                                                          provided an option to
                                 not aggressive in                                                          purchase a cruise
                                 pursuing access to                                                         vacation along with
                                 records supporting                                                         other offers and
                                 Century’s financial statements, which                    discounts. Borrowers who met the
                                 we believe could have identified                         bank's minimal underwriting standards
                                 problems in the bank’s unsecured                         and expressed an interest in obtaining
                                 credit card program and diminished the                   the credit card submitted an application
                                 loss to the Bank Insurance Fund (BIF).                   and a $20 application fee. Upon
                                 As of December 31, 1998, the FDIC                        approval, the credit card account was
                                 estimated that the BIF would incur a                     established with a $600 credit limit.
                                 loss of $171.6 million. To date, the                     With an initial charge of $543 to cover
                                 final resolution of the bank's assets                    the $498 travel package and a
                                 1
                                  There are allegations of potential fraudulent activities involving BestBank and Century in connection with the
                                 unsecured credit card travel program. These allegations were beyond the scope of the material loss review
                                 and are currently being pursued by the FDIC and federal law enforcement agencies.

                                 2
                                  A subprime borrower is one whose credit is below good credit standards. A subprime loan is usually
                                 referred to as marginal, nonprime, or below “A” quality. Subprime borrowers pose a greater risk and are
                                 characterized by paying debts late, filing for personal bankruptcy, and/or having an insufficient credit history.




                                                         12
$45 annual fee, available credit to each   examiners became concerned about           these accounts. After the examiners
borrower was only $57. BestBank            the bank’s rapid asset growth and          determined that the bank did not have
funded the program while Century and       continuing low delinquency rate.           sufficient funds to absorb the
its affiliated companies originated,       BestBank’s delinquency rate on the         estimated losses from these
managed, and accounted for the credit      credit card travel program initially was   delinquencies and that Century did not
card accounts. Century retained the        high, but dropped substantially when       have the financial capability to
bulk of the funds, and BestBank            Century modified its agreement with        repurchase the delinquent accounts,
recorded an unsecured credit card          the bank and agreed to repurchase          the Colorado State Banking Board
receivable on its books.                   delinquent accounts more quickly.          closed the bank.
                                           Meanwhile, BestBank officials began
The program was highly successful in       impeding the examiners’ access to          As a result of our material loss review,
terms of dollar volume. More than          bank records and staff. Also, the FDIC     we made 11 recommendations
500,000 new cards were issued and          did not obtain access to records           designed to provide FDIC examiners
BestBank's assets grew 648 percent in      supporting Century’s financial             (1) access to third-party servicers that
2 years, from $42 million in mid-1996      statements until 1998. While the           have the ability to significantly affect
to $314 million at the bank's closing.     examiners were not certain that            the safety and soundness of an
This increase was primarily attributable   Century had sufficient resources to        insured institution, (2) unfettered
to the unsecured credit card travel        cover potential future losses, they        access to bank employees and records
program. During this 2-year span, the      relied on the fact that Century had        during examinations, and (3) guidance
bank’s chief executive officer (CEO)       been repurchasing delinquent accounts      for improving the examination process.
and president benefited from multi-        as agreed. All the while, the              We have reached agreement with the
million dollar bonuses that were           examiners were never fully aware of        Corporation on 10 of the 11
directly tied to the growth of these       the toll the credit card operation was     recommendations, including alternative
accounts and the revenues generated        taking on the bank or of the losses that   actions for 3 recommendations.
by the account fees. Century and its       the credit card operation would later      Regarding the remaining recommen-
affiliates benefited from the costs and    cause to the BIF.                          dation, DOS has agreed to take partial
fees charged to the new account-                                                      action. DOS disagrees with our
holders.                                   Bank management’s assertion that the       recommendation that examiners refer
                                           bank could survive without Century’s       potential allegations of wrongdoing in
Regarding supervisory oversight, we        assistance prompted a visitation in        open banks to the OIG. This
concluded that DOS could have been         May 1998. The examiners reviewed           disagreement is further discussed in
more effective in controlling the bank’s   the assumptions included in the bank’s     table 1.7 of this report. We will
rapid asset growth and curbing the         cash flow projections and concluded        continue to work with DOS to reach an
subsequent losses to the BIF.              that the assumptions were erroneous.       understanding on this significant
Obstacles created by BestBank              Prior to a June 1998 joint examination,    management decision.
management and existing regulatory         FDIC examiners researched several
authority impeded the examiners’           consumer complaints of improper
access to the bank and restricted          credits appearing on the accounts.
access to Century. The examiners           The examiners found that the low
continued to rate the bank without         delinquency rates were the result of
sufficient or reliable information to      Century’s application of $20 “credits”
support the ratings, particularly asset    to 368,892 delinquent accounts
quality. Moreover, the supervisory         without actual payments from the
tools that were available to the           borrowers. These accounts
regulators were not aggressively           represented 74 percent of the total
pursued in a timely or effective           active subprime credit card travel
manner.                                    accounts, with an outstanding balance
                                           of $179.6 million. Apparently, the
Considering that unsecured subprime        application of the $20 credits was an
accounts usually have a high               attempt to make the credit card
delinquency rate requiring sufficient      accounts appear current, precluding
reserves to cover potential losses, the    the need for Century to repurchase




                                                             13
report's contents and recommen-           and Exchange Commission filings.       electronic banking, and the
dations. He acknowledged that the         DOS also processes applications        increase in consumer bankruptcy
feedback was timely and would be          for numerous bank activities such      rates. Further, due to the public
fully incorporated into DOS's             as new bank proposals, mergers,        interest aspect of consumer
ongoing efforts to improve the            and change of control requests.        protections and potential consumer
implementation of the risk-focused        Furthermore, DOS initiates formal      exposures, the FDIC has a strong
examination process. In December          enforcement actions and informal       incentive for the early detection
1998, the director of DOS issued a        corrective programs as a result of     and correction of problems in
memorandum to the regional                its examinations.                      institutions, promoting compliance
directors clarifying DOS's                                                       with consumer protection laws and
expectations for the risk-focused         Protecting Consumers'                  regulations, and increasing public
examination process and took              Rights                                 understanding of and confidence in
action to implement our                   In addition to the safety and          the deposit insurance system. The
recommendations.                          soundness issues related to the        Division of Compliance and
                                          financial condition of insured         Consumer Affairs (DCA) projects
Supervising Insured Institutions          institutions, the Corporation must     conducting over 2,300 compliance/
and Protecting Consumer                   deal with matters related to bank      CRA examinations in 1999, with a
Interests                                 compliance with laws pertaining to     decrease to approximately 2,000
                                          consumer protections and civil         examinations per year over the
The FDIC is the primary federal           rights that are equally important in   next 4 years. DCA functions
regulator for almost 6,000 insti-         today's banking environment. A         include responding to consumer
tutions that have assets totaling         key consideration in this regard is    complaints and inquiries. The
nearly $1.2 trillion. In addition, the    the Community Reinvestment Act         volume of these complaints and
FDIC provides supervisory                 (CRA), a 1977 law intended to          inquiries is expected to range
oversight, although not as the            encourage insured banks and thrifts    between 90,000 and 140,000 per
primary regulator, for about              to meet local credit needs,            year from 1999 through 2003.
4,600 institutions with total assets      including those of low- and
over $5.3 trillion. Although a            moderate-income neighborhoods,         OIG Targets Key
steady decline in the number of           consistent with safe and sound         Supervisory Areas
insured institutions is projected         operations. The Congress has           To help the FDIC more effectively
over the next 5 years, total assets       mandated that the bank regulatory      fulfill its bank supervision responsi-
are projected to increase. The            agencies evaluate institutions' CRA    bilities, the OIG has targeted a
challenge to the Corporation is to
ensure that its system of
supervisory controls will identify
and effectively address financial
institution activities that are unsafe,
unsound, illegal, or improper before
the activities become a drain on the
deposit insurance funds.

In accordance with statutory
requirements and corporate policy,        performance and that these             number of key areas that include:
DOS projects starting over                evaluations be disclosed to the        coordination with other federal and
2,600 safety and soundness                public starting in July 1990.          state banking regulators; DOS's
examinations in 1999. DOS also                                                   case manager program; and the
provides off-site analysis for all        Banking laws related to CRA and        compliance examination program,
institutions, including those for         consumer protections have              including the frequency, priority, and
which it is not the primary               changed some in the past several       scope of these examinations as
regulator. This analysis includes         years. The environment in which        well as CRA performance
reviewing Office of the Comptroller       financial institutions operate is      evaluations. We issued the results
of the Currency, Office of Thrift         evolving rapidly, particularly with    of our work in these areas during
Supervision, and Federal Reserve          the acceleration of interstate         the reporting period.
Board examinations and Securities         banking, new banking products,



                                                           14
\
Joint Review of the Federal
Financial Institutions Examination
Council’s Training Program



             The Inspectors General of the Federal Deposit Insurance Corporation,
             Board of Governors of the Federal Reserve System, Department of the
             Treasury, and National Credit Union Administration completed a joint
             review of the Federal Financial Institutions Examination Council’s
             (FFIEC) Training Program and issued a final report on March 31, 1999.
             This area was selected for review because it represents a principal
             function of the FFIEC as specifically mandated by legislation and has
             not been the particular focus of any recent Inspector General audits or
             reviews.
             The objectives of the review were to determine whether (1) the goals
             of the FFIEC’s training program are being met, (2) the Task Force on
             Examiner Education (TFEE) is an efficient and effective vehicle for
             guiding the FFIEC’s training program, and (3) the current budget
             process adequately serves the goals and objectives of the FFIEC’s
             training program. The report contains four recommendations to help
             improve management of the FFIEC’s training program and thereby
             maximize its usefulness to the member agencies.
             The executive secretary, on behalf of the Council, provided written
             comments on a draft of the report. The response states that the
             Council is generally receptive to the recommendations and has charged
             one of its members, the TFEE chair, and the executive secretary to
             develop a recommended course of action for discussion at the next
             Council meeting in June 1999. The executive secretary also suggested
             that the Council would welcome continued assistance and guidance
             from the Offices of Inspector General in implementing the recommen-
             dations. As lead agency on this audit, the FDIC’s OIG will continue to
             monitor the status of the recommended actions.




                                         15
Coordination of Exams with                the FDIC's database of call reports,    companies to one individual,
State Banking Authorities in the          examination and structure               regardless of charter and location,
Kansas CIty Region                        information, and other pertinent        and by encouraging a more
We completed an audit of the              information for use in safety and       proactive, yet non-intrusive,
FDIC's coordination of safety and         soundness examinations.                 coordinated supervisory approach.
soundness examinations with state                                                 DOS implemented the program in
banking authorities in the Kansas         Although DOS closely coordinates        April 1997.
City region. The Kansas City              examinations with the state
regional office has primary               banking departments, we found           The OIG conducted an evaluation
supervisory responsibility for            80 instances where DOS did not          review to learn how regional offices
approximately 1,600 banks in              comply with the examination             have implemented the Case
7 states. In accordance with              frequency requirements of the FDI       Manager Program, obtain regional
section 10(d) of the FDI Act, federal     Act. In addition, we believe that       management and staff's views on
regulators must examine insured           the process used to rely on state       how well the program was
financial institutions every 12 or        examination reports could be            achieving its objectives, and
18 months, depending on asset size        strengthened. Finally, we               identify any issues warranting
and CAMELS (capital adequacy,             concluded that the Cooperative          further review or management
asset quality, management,                Examination Agreements should be        attention.
earnings, liquidity, and sensitivity to   updated, and that DOS should
market risk) ratings. The FDIC may        work closely with the state of Iowa     Regional management and
alternate examinations with a state       to develop a more symmetrical           85 percent of case managers that
banking authority if it determines        examination cycle that would            were sampled viewed the program
that a state examination fulfills the     provide a better assessment of risk     favorably. Despite the overall
examination requirements                  and ease regulatory burden. The         positive comments, however,
contained in the FDI Act. As a way        report contained four recommen-         47 percent of case managers said it
to conserve resources and minimize        dations that address these issues.      was difficult to effectively manage
regulatory burden, the FDIC               Management agreed with three of         caseloads because of competing
alternates examinations with most         the four recommendations and has        responsibilities. Case managers
state banking departments.                taken the necessary steps toward        were particularly concerned about
                                          implementation. The recommen-           processing applications and the
We determined that DOS's Kansas           dation that management did not          quarterly reports prepared on large
City Regional Office closely              fully agree with relates to reliance    institutions. These functions took a




coordinates examinations with state       on state examination reports and is     considerable amount of their time
banking authorities. The regional         the subject of an ongoing OIG           and limited their ability to focus on
office has entered into Cooperative       nationwide audit.                       risk and supervisory issues.
Examination Agreements with all
seven state banking departments in        Implementation of DOS Case              Some case managers also
the region. The agreements address        Manager Program                         questioned whether the quarterly
the scheduling and frequency of           The primary goal of the FDIC's          reports, as presently structured,
examinations as well as pre-              Case Manager Program is to signifi-     resulted in a useful product for
examination procedures, examination       cantly enhance risk assessment and      management. Most significantly,
report processing, and enforcement        supervision activities by assigning     case managers did not view the
actions. In addition, each state          responsibility and accountability for   reports as being timely or dynamic.
banking department has access to          a caseload of institutions or           Case managers indicated that the




                                                            16
\
FDIC Addresses OIG Concerns over the
Processing, Collection, and Tracking of
Public Requests for Supervision Reports


              In September 1998, in response to a request from
              management, we completed an audit of the Division of
              Supervision’s (DOS) processing, collection, and tracking of
              public requests for Uniform Bank Performance Reports and
              Call Reports. We concluded that there were no management
              controls over DOS’s tracking and billing processes and that
              DOS’s electronic tracking system was ineffective. As a result
              of our audit, DOS implemented a prepayment system that
              eliminates the need to track and monitor past due invoices
              and, with the assistance of the Division of Finance, initiated a
              collection of outstanding receivables. In a related matter, the
              FDIC’s Internet Operating Committee (IOC) is in the process
              of determining the best approach to posting products for sale
              on the FDIC’s Internet website and ensuring payment. In
              consideration of internal control concerns raised during our
              audit, the IOC is concerned that (1) there are no corporate-
              wide policies for pricing products offered for sale to the
              public or receiving payments on these products and (2) there
              is no corporate-wide listing of products for sale. The FDIC’s
              Internal Control Liaison Council is assisting the IOC in this
              effort.




                                         17
underlying financial data was 1 to       laws and regulations using             not detecting noncompliance in
2 quarters behind by the time DOS        aggressive scoping procedures          banks. As a result, we
executives in Washington reviewed        (eliminating or reducing the review    recommended that DCA re-
the reports. Given the dynamics of       for certain laws and regulations) to   examine the internal control risk
the industry, case managers              the greatest extent possible to        assessment. DCA management
questioned whether the reports           save time during compliance            agreed with our recommendation
were the best vehicle for communi-       examinations. Although it was          to separately identify and evaluate
cating emerging risks to senior          noted that DCA intended for this       the risk areas related to the
officials in Washington.                 policy to improve risk management      detection of noncompliance in
                                         procedures for conducting              banks and DCA's ability to meet
We recommended that DOS study            examinations within existing           examination frequency
what constitutes a manageable            resources, we concluded that the       requirements. Additionally, DCA
workload for a case manager and          risk management policy permitted       management will re-evaluate the
evaluate Regional Office best            changes to DCA's examination           risk ranking level in the fourth
practices for managing the               process that would make it less        quarter of 1999 for the year 2000
fluctuating applications workload.       comprehensive than the                 Management Control Plan
We also recommended that DOS             compliance programs at the other       submission.
study the efforts to produce, and        federal bank regulatory agencies.
the value provided by, the quarterly     Moreover, we were concerned that       Maximizing Returns from Failed
reports, and whether actions could       the extended examination cycle         Institutions
be taken to increase the value of        and reduced testing of certain laws
the reports. DOS agreed with two         and regulations could diminish the     The FDIC is charged with
of our three recommendations.            FDIC's ability to adequately enforce   minimizing the negative financial
DOS will evaluate best practices of      consumer protections and may give      effects of failing and failed insured
the regions for managing the             banks and the public the perception    depository institutions in its
applications workload and                that the FDIC had placed a lower       receivership management program.
anticipates amending the structure,      priority on conducting these           The focus for this goal is on four
frequency, and distribution of the       examinations.                          areas: resolving institutions in the
quarterly reports. DOS believed                                                 least costly manner, managing and
that existing regional processes         As a result of our audit, the new      marketing failed-institution assets
provide for proper monitoring of         policy has been superseded and         to maximize return, pursuing
workload fluctuations.                   examiners are again required to        monies due to the failed institution,
                                         conduct full-scope compliance          and resolving debts of the
DCA Policy for Determining               examinations at least once every       institution fairly. Because of the
Examination Frequency, Scope,            3 years, depending on a bank's         decline in the number of problem
and Priority                             previous ratings and asset size.       banks and, therefore, the need for
During this reporting period we          Also, compliance examiners are         resolutions, the areas of asset
issued our first report related to the   now required to conduct                management and disposition gain
FDIC's CRA and consumer                  examinations using a risk-focused      relative importance.
compliance examination function.         approach based on the risks
The report addressed the FDIC's          identified in the individual banks     As of January 1, 1999, the FDIC
policy for determining the               under review.                          held assets for liquidation that
frequency, scope, and priority of                                               totaled $2.4 billion in book value.
CRA performance evaluations and          We also found that in 1996 DCA         The Division of Resolutions and
compliance examinations for state        redefined its internal control risk    Receiverships (DRR) noted in its
non-member financial institutions.       assessment related to meeting          March 1999 activity report that
                                         examination frequency require-         during the 3-month period ending
In January 1998,the FDIC's DCA           ments and detecting noncom-            March 31, 1999, total receivership
issued a new risk management             pliance by banks and that in 1997      assets managed by the Corporation
policy for the examination process.      DCA lowered the associated risk        declined from $2.4 billion to
The policy extended examination          ranking from “medium” to “low.”        $2.1 billion (rounded), a 10 percent
frequency requirements for up to         However, we believe that the           reduction. The current and
5 years and required examiners to        redefined internal control risk did    projected asset workload is far
evaluate compliance with certain         not adequately represent the risk of   below the $165 billion held by the




                                                          18
FDIC and Resolution Trust                $786 million remained in the FDIC’s     The audit determined that approxi-
Corporation (RTC) in 1992. Still,        inventory. Underlying assets            mately $28.2 million of the
one of the FDIC’s priorities             include sub- and non-performing         $60.3 million (or 47 percent) in
continues to be that of effectively      mortgage loans and owned real           PRFs that the RTC had established
managing assets to ensure their          estate. The Corporation has a           for four Lomas securitized
timely, efficient resolution at the      limited ownership interest in the       transactions had not been properly
least cost to the insurance fund.        equity partnerships, which are set      accounted for or returned to the
                                         up so that the private-sector party     FDIC as of September 1998.
Focus on Protecting the                  that holds the general ownership        Moreover, the FDIC had not
Corporation’s Interests in               interest is responsible for disposing   adequately overseen the
Securitizations and Equity               of the assets.                          transactions since assuming the
Partnerships                                                                     RTC’s responsibilities in January
The OIG’s work is designed to            OIG Questions Handling of               1996. For example, the FDIC did
ensure that the FDIC’s interests in      Payment Retention Funds by              not protect the Corporation’s
securitizations and equity               Master Servicer and FDIC and            interests by filing a proof of claim
partnerships (further described          Raises Other Oversight Issues           for the outstanding PRFs with the
below) are adequately protected          During the current reporting period     bankruptcy court when Lomas filed
and that the related entities are        we completed seven audits that          for bankruptcy. Also, the FDIC did
performing as stipulated by the          focused on the roles, responsi-         not determine the new master
various agreements. The following        bilities, and effectiveness of          servicer’s legal liability for returning
briefly summarizes the financial         servicers, trustees, and the FDIC in    the outstanding PRFs or the
magnitude of these areas:                certain securitizations and an equity   relationship of $10.1 million received
                                         partnership. These audits resulted      from a primary servicer to the Lomas
The FDIC inherited a total of            in questioned costs of $1.2 million.    transaction. Finally, the FDIC did not
72 securitization transactions with      One of the audits, Payment              effectively communicate with the
an initial total reserve fund balance    Retention Funds Established by the      new master servicer to promptly
of $7.8 billion from the RTC. As of      Resolution Trust Corporation for        reconcile and settle the transactions.
March 25, 1999, the FDIC reported        Securitized Transactions Serviced       The OIG recommended that a task
that 54 active securitizations with a    by Lomas Mortgage USA, reviewed         force consisting of staff from DRR,
reserve fund balance of $3.3 billion     whether the master servicer had         the Division of Finance (DOF), and
remained in its inventory. A securi-     properly accounted for the payment      the Legal Division be formed to
tization involves selling securities     retention funds (PRFs). (This was a     jointly review and resolve all
that are primarily collateralized by     follow-up to a similar audit            outstanding issues related to the
various types of real estate loans to    performed in November 1996 that         Lomas transactions.
investors. In an effort to rapidly       questioned $3.5 million in PRFs
sell large amounts of loans to           that another servicer had not           As a result of an OIG recommen-
obtain the greatest financial benefit,   returned to the RTC.) PRFs were         dation for the report entitled Audit of
receivership loans are pooled            established to ensure that investors    the Credit Enhancement Reserve
together as collateral to back           in a securitized product received a     Fund for 1993-03, DRR issued more
securities sold to investors in the      predictable, steady stream of           specific guidance to its oversight
secondary market. This process           payments. As these securities are       contractor to enhance the quality of
results in mortgage-backed               backed by mortgages, the PRFs           the realized loss1 reviews that the
securities, or pass-through              provided the master servicer with       contractor performs. Also,
certificates.                            funds to make up shortfalls in          NationsBanc, the successor servicer
                                         monthly payments from borrowers;        for this and various other securiti-
The FDIC assumed 42 equity               the PRFs were ultimately to have        zation transactions, has returned
partnerships (not including the          been returned to the Corporation.       $262,912 to the FDIC for
Judgments, Deficiencies, and             During the audit, the OIG expanded      unsupported and unallowable claims
Charge-offs Program) with assets         the scope to include the FDIC’s         to the reserve fund. NationsBanc is
having an original book value of         oversight of the master servicer        further cooperating with DRR to
$9 billion from the RTC at its           and efforts to reconcile and settle     determine an overall historical error
sunset. As of February 28, 1999,         the outstanding PRFs.                   rate for the prior claims submitted
37 equity partnership agreements                                                 for reimbursement from the reserve
with assets having a book value of                                               fund by its predecessor servicer. As
                                                                                  1
                                                                                   A realized loss consists of the net proceeds upon
                                                                                  liquidation of an asset, advances made by the servicer,
                                                                                  and the remaining principal balance on the loan.
                                                          19
such, a recovery to the reserve fund    allow for those goals to be adjusted    others. As of the end of this
based on this work is likely. We will   by any new assets added during          reporting period, about $139 million
continue to monitor the progress of     the goal year. However, the             has been collected.
this potential recovery and report on   results, which are measured
it in future semiannual reports.        against the goal, include both the      Although DRR tracks this kind of
                                        sales of the assets comprising the      outstanding debt for the FDIC and
Future audits of securitizations and    established goal and the sales of       pursues collections, the OIG
equity partnerships will concentrate    any assets received and sold during     Investigations staff assists DRR by
on calculations of realized losses,     the year. The OIG suggested that        sharing information, especially in
unallowable expenses, the               DRR may obtain more meaningful          cases where the debtors may be
adequacy of the oversight in DRR,       results by either increasing the goal   deliberately concealing assets, and
and affiliate transactions. However,    during the year to include added        by participating in investigations of
we have concluded that we will not      assets that DFOB expects to sell or     debtors alleged to be fraudulently
perform additional audit work for       establish a separate goal for assets    avoiding making payments.
residential securitization              added during the year. This type of     Examples of some of these cases
terminations at this time as our        approach is an example of how we        are included in the Investigations
survey results show no significant      intend to continue linking our          section of this report.
systemic problems with these            planned reviews to corporate
terminations. We may, though,           strategic goals. (See OIG Plans         The OIG believes that teamwork is
review commercial securitization        Future Results Act Strategies           the key to resolving these
terminations. Also, the OIG may         section.)                               investigative matters most
perform audits and make                                                         successfully. Some ongoing team
recommendations that will support       Partnering with the Corporation:        efforts the OIG is engaged in
DRR in achieving its own 1999           Collecting Court-Ordered                include its continuing work with
Annual Performance Goals related        Restitution                             two Massachusetts groups, the
to strengthening both oversight         As first noted in our March 1998        New England Bank Fraud Task
methodologies for securitization        semiannual report, the OIG is           Force and the Judicial Enforcement
transactions and policies and           working with DRR to collect             Team. In these endeavors, agents
procedures for processing               $1.2 billion in court-ordered           from the Federal Bureau of
receivership claims.                    restitution from several hundred        Investigation, Secret Service, and
                                        individuals and entities. Those         FDIC OIG work with the U.S.




Survey Issued Regarding                 court orders result from criminal       Attorneys Offices, U.S. Marshals,
Proceeds from Sales of Loans            convictions stemming from               and employees of the U.S.
The OIG performed a survey of           schemes to defraud federally            Probation Office to identify those
proceeds from loan sales by the         insured institutions that have          individuals who may be fraudulently
Dallas Field Operations Branch          resulted in losses to the FDIC. Our     avoiding court-ordered restitution.
(DFOB), DRR, to gather background       work in the restitution area focuses    The OIG has been coordinating with
information on how DFOB handles         on individuals who have attempted       the Office of the U.S. Trustee to
proceeds from the sales of loans.       to avoid making payments to the         identify individuals who have
The survey disclosed one issue for      FDIC by making false statements         avoided payment to the FDIC of
DRR’s consideration: Sales goals        concerning their assets and/or          court-ordered restitution by filing
that were set in the quarter            ability to pay, and/or by concealing    false bankruptcy claims. As part of
preceding the goal year did not         or illegally transferring assets to     this effort, we have become active




                                                         20
participants on Bankruptcy Fraud         The OIG’s work in the IT area is       During the current reporting period
Task Forces in Phoenix and               conducted with a view toward the       we issued a second report
Tucson, Arizona.                         goals the Corporation is trying to     discussing TAPS. We concluded
                                         achieve. As discussed earlier, a       that the TAPS project team
Managing Information                     principal focus of our work related    continued to deviate from the
Technology                               to IT has been in connection with      FDIC's SDLC process, did not
                                         the Corporation’s Y2K efforts. Our     provide senior management with
According to the Corporation’s           other IT work generally focuses on     the information needed to make
Information Technology (IT)              systems development efforts;           informed decisions, and did not
Strategic Plan for 1998-2003, IT is      specific application reviews;          perform effective contractor
critical to the Corporation’s success    computer services and security;        oversight. As a result, the FDIC
and can be leveraged to support          and planning, procurement, and         terminated the TAPS project in July
the FDIC’s business goals. The           administration. During the             1998 after expending at least
Corporation is focusing its efforts      reporting period, we issued the        $6.5 million and completing only a
on key business processes that are       results of work in several of these    functional requirements and
most fundamental to the                  areas.                                 external design document.
Corporation’s success and is
working to improve these                 DIRM Needs to Adhere to Systems        We made eight recommendations
processes. At the same time, it is       Development Life Cycle Process         to strengthen controls over and
seeking to identify where and how        Second Report on TAPS Project          enhance SDLC procedures and
technology can be used to support        A major systems development            processes. The response to the
these efforts and better support         effort that the Corporation            draft report from DIRM's director
the Corporation and its customers.       undertook was its effort to develop    and subsequent correspondence
                                         a time and attendance processing       with him and the special assistant
The Strategic Plan contains six key      system. The two-phased process         to the deputy to the Chairman and
goals in the IT area: Improve            to develop a fully automated time      chief operating officer provided
Customer Satisfaction with               and attendance system was              responses to all recommendations
Application Systems; Reduce              initiated in 1995. The Time and        that satisfy the concerns addressed
Corporate Costs Through the Use of       Attendance Processing System           in the audit report.
Technology; Manage Information for       (TAPS) was to be the final solution.
the Corporation; Provide an IT           In our last semiannual report, we




Infrastructure that Works               reported that the TAPS project          GENESYS Project
Everywhere, All the Time; Improve       team had failed to follow the FDIC’s    A second major systems
the Efficiency and Effectiveness of     system development life cycle           development effort that the
IT Management; and Fix the Year         (SDLC) methodology, and we              Corporation has conducted is the
2000 Problem. Accomplishing             recommended actions intended to         General Examination System
these goals efficiently and             improve the development effort.         (GENESYS) development project.
effectively requires significant        Despite these recommendations,          GENESYS is the FDIC's most
expenditures of funds and wise          the Division of Information             comprehensive initiative to apply
decision-making and oversight on        Resources Management (DIRM)             technology to the bank safety and
the part of managers. The Corp-         continued to deviate from the           soundness examination process.
oration has budgeted $211.2 million     FDIC’s SDLC.                            GENESYS will replace the FDIC's
for IT expenditures in 1999.                                                    Automated Report of Examination




                                                         21
and WordPerfect templates used         agreements and obtain FDIC Board         Accounts Payable and Purchase
by DOS examiners to generate the       of Director approval prior to            Order system was well protected,
Report of Examination. GENESYS         investing significant FDIC               but controls over the LAN, Liability
is intended to improve the quality     resources to satisfy non-FDIC            Dividend System, Personnel Action
of the Report of Examination and       requirements of GENESYS. The             Request System, and LAN
the efficiency of the report           Corporation's response provided us       equipment needed improvement.
preparation process by incorpo-        with the requisite elements of a         We found problems with password
rating time saving and data            management decision for all              procedures, granted levels of
integration features of Microsoft      recommendations.                         access, security reviews, security
Windows 95 and Office 97                                                        officer duties, access revocation,
software.                              Audit Addresses Information              independent reviews for
                                       Systems Security in Regional             programming changes and dividend
We recently issued the results of      Office                                   processing, edit report details, door
our second review of the GENESYS       The FDIC Dallas office is important      locks, and fire protection. Also,
development project. We                to corporate operations as the           Dallas DIRM's contingency plan did
concluded that although DIRM and       leading liquidation site for failed      not ensure that important systems
DOS had improved the                   financial institutions. DRR's Field      could be restored in the event of a
development practices for              Operations Branch and DOF's Field        disaster. Our audit acknowledged
GENESYS following our initial audit,   Finance Center are both located in       that significant corporate changes
GENESYS development continued          Dallas. Although the overall             had affected information security in
to deviate from the FDIC's SDLC        management of mainframe                  Dallas. Specifically, when the
process. We also identified            applications, data, initial passwords,   FDIC's Southeast Service Center in
opportunities for the FDIC to          and Local Area Network (LAN)             Atlanta, Georgia, transferred its
improve the efficiency of the          security policies resides with FDIC      workload to the Dallas office, a
GENESYS development process by         operations in Washington, D.C.,          new LAN operating system was
formalizing up-front, inter-agency     sound security practices in Dallas       installed, and all Dallas divisions
development agreements and             support corporate information            relocated to new office space.
reducing the turnover of key           systems integrity and safeguard          FDIC Dallas was addressing these
program office staff assigned to the   corporate assets. Effective              changes and working to enhance
project. In addition, we found that    security practices require restricted    controls during the course of our
GENESYS security features needed       and monitored access to systems          audit.
to be improved and that more           and a timely recovery in the event
complete and up-to-date cost-          of a catastrophe.                        Based on our audit work, we made
benefit information on GENESYS                                                  17 recommendations to FDIC
needed to be tracked and reported.     During the reporting period we           Dallas officials addressing various
                                       completed an audit of information        elements of systems security.
As a result of the audit, we           systems security in the FDIC's           Corporation officials in DIRM, the
recommended that the director,         Dallas office. Our objectives were       Division of Administration (DOA),
DIRM, modify and adhere to the         to determine whether FDIC                and DOF provided written
FDIC's SDLC methodology,               Dallas's security controls protected     responses to a draft of our report.
maintain and update project cost-      computer systems and local area          The Corporation agreed with all of
benefit information, follow a          network equipment and whether            the recommendations.
phased testing approach for future     contingency plans ensured
systems initiatives, and improve       restoration of general support and       Additional OIG Work in the
the security of the GENESYS            major application systems should a       IT Area
application. We also recommended       disaster occur.                          Additional OIG work this reporting
that the director, DOS, evaluate the                                            period in the IT area included a
feasibility of establishing a          Our audit revealed a number of           report on the Corporation’s
permanent core staff to manage         security lapses that, when taken         Cryptographic Infrastructure Design
the development of major DOS           together, raised concerns relating       and on its Call Processing System.
systems, including GENESYS.            to security over vital information       Cryptography is the process of
Finally, we recommended that the       and costly equipment relied upon         writing in or interpreting secret
directors, DIRM and DOS, formalize     by FDIC staff to accomplish the          code. The Corporation uses this
interagency development                Corporation's mission. The               type of process in applications like




                                                         22
its Electronic Travel Voucher           regarding the status of the nation’s    awarded in headquarters.
Payment System that is designed         banking system. Therefore, it is of     Approximately $123 million of this
to provide a paperless method of        paramount importance to preserve        expenditure authority had been
handling travel arrangements and        the data’s integrity and accuracy.      spent and $253 million remained to
expense reimbursements.                                                         be used. Also, the FDIC’s Legal
                                        Our audit of the Call Processing        Division projects that nearly
We concluded that DIRM                  System identified opportunities to      $40 million will be paid to outside
implemented sufficient controls to      improve the integrity, security, and    law firms in 1999.
support the use of software that        documentation of the system. All
encoded sensitive data related to       but one of the findings in our report   The OIG continues to focus
financial institution performance       were corrected by DIRM staff prior      resources on auditing contracts and
reports. We also concluded that         to our draft report issuance. The       agreements. In this reporting
DIRM implemented partial controls       Corporation agreed with the one         period, the OIG audited contracts in
to support the use of other security    recommendation we ultimately            such varied areas as property
software as the prime ingredient        made.                                   management, legal billing,
for establishing trusted information                                            employee food services, and
sharing among select individuals.       Ensuring Sound Controls and             assisting the FDIC with its
However, we determined that             Oversight of Contracting                monitoring of equity partnership
DIRM testing of this software was       Activities                              oversight (see also Maximizing
incomplete and that DIRM had not                                                Returns from Failed Institutions).
established adequate checks and         Despite a decline in the number of
balances over sensitive operations.     both awarded and active contracts,
In addition, DIRM's intended use of     the FDIC continues to rely on           Non-Legal Audits Include
the software did not comply with        private-sector contractors to           Contracts for Software, Food
National Institute of Standards and     accomplish its mission. In all areas    Service, and Property
Technology and General Accounting       where contractors are involved, the     Management
Office requirements, and internal       Corporation must ensure that it is      The OIG audited billings of The
control practices were not fully        receiving the services it is paying     Application Support Company
documented. In addition, we             for and that it has sufficient          (TASC), a firm that was hired by the
determined that the FDIC's              controls over contractor billings to    FDIC to upgrade its all-
automated registration process of       help prevent fraud and abuse. The       encompassing financial information
this software allowed the possibility   Corporation must also guard             management software and to
for users to masquerade as other        against finding itself in a position    create a new financial information
users.                                  where it cannot pursue claims           management system. The OIG
                                        against contractors because of          questioned $296,585 of the
The FDIC’s Call Processing System       lapses in its own oversight of their    $7.4 million invoiced and paid
is used by DOS to record and            activities.                             during the 17-month audit period
process information received from                                               ended May 31, 1997. (The
FDIC-insured financial institutions     Contractors assist the FDIC in          $7.4 million audited is approxi-
regarding each institution’s income,    many areas including legal matters,     mately 64 percent of the total
assets, and liabilities. Information    property management, loan               contract amount of $11.6 million.)
contained in this system is used by     servicing, asset management,            Specifically, TASC billed the FDIC
other FDIC reporting and                information technology, and             for such items as incorrect hourly
monitoring systems. It is also used     financial services. Projections of      rates, excessive hours billed per
extensively by the FDIC and other       1999 non-legal contract awards and      day, and for work performed by
financial institution regulatory        purchases total 4,400 actions           33 subcontractors that did not have
agencies in their daily off-site bank   valued at $275 million. One of the      prior written approval to begin work
monitoring activities. Call data are    most active areas of contracting in     as required by the contract.
also used by the public, the            the Corporation regards information
Congress, state banking authorities,    technology. As of March 31, 1999,       The directors of both DOA, which
researchers, bank rating agencies,      there were more than 340 active         performed the contracting function,
and the academic community.             information resources management        and DIRM, which was responsible
These data provide the only publicly    contracts valued at over                for the contract oversight, jointly
available source of information         $376 million that had been              responded to and generally agreed




                                                         23
with the OIG’s recommendations.         reporting period we issued five         number of senior managers and
As a result, the directors agreed to    reports on legal fee bill audits and    professionals in most divisions and
disallow $293,621 of the $296,585       questioned $293,643.                    offices.
in questioned costs (99 percent).       Management agreed to disallow
Further, DOA has agreed to review       $187,763 (64 percent) of that           Looking back over the past
the current policy covering the use     amount.                                 12 months, in addition to the new
of the invoice check-list and make                                              Chairman assuming her position,
any revisions necessary to its          In addition, of the 24 OIG legal fee    many other significant personnel
Acquisition Policy Manual. DIRM         bill memoranda (also known as           changes have occurred at the FDIC.
agreed to select a sample of            “small dollar” reports where the        Among others, Director Joseph
invoices from two other related         OIG believed questioned costs           Neely, who also served as head of
contracts to test for billing errors    would be less than $100,000)            the Audit Committee, left the
similar to those identified in the      issued in prior reporting periods, 23   Corporation and his director
TASC audit.                             are closed. Of the $422,825 in          position has not yet been filled.
                                        disallowed costs consisting of          The chief financial officer, who was
Also, the OIG performed an audit of     inappropriately charged fees and        also serving as the director of DOF,
the FDIC’s food services contract       expenses, management has                retired in June 1998, and the
with Aramark Services, Inc., and        recovered $329,296 (78 percent) to      directors of three other major
another audit of the property           date and written off $34,810.           divisions--DOA, the Office of
management of Shelter Cove, a                                                   Diversity and Economic
condominium park, by the Hilton         Operating Effectively in a              Opportunity, and DCA--also left. As
Group Company. The food service         Changing Environment                    of March 31, 1999, permanent
audit brought out the need for                                                  successors have not been named
greater internal controls, while the    Since 1994, as the work                 for the chief financial officer
Shelter Cove audit resulted in          emanating from the banking and          position as well as the directorships
$74,633 in questioned costs, most       thrift crises has declined and          of the four divisions mentioned
of which regarded Hilton’s billings     continued consolidation of the          previously. The division director of
for subcontractors.                     financial services industry has         one of the FDIC's most critical
                                        occurred, the FDIC has accordingly      divisions, DOS, left in December
OIG Reviews Remaining Legal             reduced its workforce substan-          1998 and has subsequently been
Fee Bills                               tially. The workforce has fallen        replaced. The Office of Policy
A major area of audit over the past     from a high of about 15,600 in
several years has been our review       mid-1993 to 7,340 as of February 8,
of legal fee bills submitted by firms   1999. More downsizing may be in         Special Update
doing business for both the RTC         store going forward.                         On May 18, 1999, Chairman
and FDIC. The OIG’s goal in                                                          Tanoue announced
conducting audits of the firms’         At the same time, the FDIC is                appointments to the following
billings has been to ensure that        addressing staffing shortages in             corporate positions:
firms adhere to the legal services      certain critical skill areas owing to
agreements’ billing requirements        the loss of such a high number of            • Chief Financial Officer
and that the FDIC pays only for         staff and strict prohibitions on
allowed and supported fees and          hiring from 1992 through 1997.               • Directors of
expenses. We have worked in             Additionally, through employee                    - Division of Administration
close cooperation with the Legal        buyouts, early retirements, and                   - Division of Compliance
Division throughout this endeavor.      other downsizing activities, the                    and Consumer Affairs
                                        Corporation has lost a number of                  - Division of Finance
Through March 31, 1999, the RTC         highly experienced managers and                   - Office of Diversity and
and FDIC OIGs have issued 300           senior technical experts. The                       Economic Opportunity
legal fee bill audit reports with       Corporation has predicted that
questioned costs totaling more          approximately one of every six
than $37 million. Although the          remaining FDIC employees either is
number of contracts in this area        or will become eligible to retire
has declined, risks to the FDIC         within the next 5 years. This
remain. During the current              number includes a disproportionate




                                                         24
Development was also eliminated         presented to the Board of Directors       concluded that management
over the past reporting period.         in the second quarter of 1999. This       oversight could be improved to help
Given the number of such                plan will outline in greater detail the   ensure that completed matters are
departures and organizational           Corporation's vision and mission          closed in LMIS timely.
changes, the Corporation must plan      with respect to diversity and will
for the successful transition to new    provide a long-term blueprint for         As a result of our review, we made
leadership in the months ahead and      the implementation of diversity           recommendations to improve
ensure that, as a whole, the            initiatives. It will also serve as a      controls over closing matters and to
Corporation is well prepared to         tool for managers in the                  increase matter accountability and
perform its mission and respond to      Corporation. The Corporation will         client responsiveness. We also
any emerging problems in the            need to monitor its progress in           identified management information
financial services industry.            implementing the plan and ensure          system issues that resulted in the
                                        that it cultivates an environment as      Legal Division eliminating the
The FDIC's Diverse Workforce            set forth in its definition of            duplication of effort involved in
The Corporation must also address       diversity.                                using two case tracking systems
another significant organizational                                                and clarifying guidance for the
challenge: diversity. The FDIC          OIG Review Addresses Legal                division's system of record to
Chairman has noted that as the          Caseload Allegation Related to            provide greater assurance that the
face of banking has changed, so         Downsizing                                system accurately presents the
has the face of the FDIC. The           In connection with the                    current status of the division's
Corporation has encouraged the          Corporation's downsizing efforts          caseload.
creation of a diverse workforce by      over the past months, the OIG
culture, by experience, and by          received a related Hotline allegation.    Processing Freedom of
gender. As part of her February 4,      It was alleged that to preserve their     Information Act Requests
1999 remarks to the Corporation,        jobs, FDIC attorneys were claiming        One of the Corporation’s activities
the Chairman underscored the            to have as their workload a large         affected by a changing environment
importance of promoting diversity       number of current matters, when,          was the processing of Freedom of
in the workplace. The FDIC has          in fact, many of the matters were         Information Act (FOIA) requests.
adopted the following definition of     actually closed. We conducted an          FOIA was enacted in 1966 and
diversity:                              evaluation to determine the merits        provides that any person has the
                                        of this complaint.                        right to request access to federal
  Diversity is about who we are as                                                agency records or information.
  individuals, both differences and     Our review revealed no intentional
  similarities. The Corporation         coordinated effort to delay the           The Corporation’s Office of the
  recognizes that its strength          reporting of closed matters in the        Executive Secretary (OES) is
  comes from the dedication,            Legal Management Information              responsible for administering the
  experience, and diversity of its      System (LMIS). We saw no                  FDIC’s FOIA program. OES’s task
  employees and believes that,          evidence that the number of               became more challenging when
  given the opportunity, each           matters was a factor in determining       FOIA was amended in October
  employee can make a difference.       required Legal Division staffing.         1996 by the Electronic Freedom of
  The FDIC is committed to              Our analysis of sampled matters           Information Act Amendments
  promoting and supporting an           found no unreasonable delays in           (E-FOIA) of 1996. Among other
  inclusive environment that            assigning matters to attorneys but        things, E-FOIA established
  provides to all employees the         did find indications that some            expedited FOIA processing
  chance to work to their full          matters should have been closed           procedures and granted access to
  potential-individually and            sooner in LMIS. For a substantial         the public to certain government
  collectively--in the pursuit of the   number of active, inactive, and           documents via computer telecom-
  Corporation's mission.                closed matters, there was no              munications. The Corporation
                                        documented activity for more than         received 1,011 FOIA requests in
The Chairman appointed a Diversity      90 days. This finding raised              1997 and 811 requests during 1998.
Steering Committee consisting of        questions as to the veracity of the       OES was processing these
senior corporate executives, and        reported matter status and the            requests and initiating efforts to
this group has developed a              progress being made in completing         implement E-FOIA in the midst of
Diversity Strategic Plan to be          outstanding matters. We                   losing staff.




                                                         25
We conducted an evaluation of this   system to better monitor FOIA           We expect to provide the report to
activity to determine whether FOIA   responses.                              the Subcommittee and share it with
requests were being logged,                                                  all OIG staff by the end of May 1999.
tracked, and addressed in a timely   OIG Initiates Diversity Study
manner. We focused our efforts on    The OIG is fully committed to           Establishing Goals and Measuring
identifying ways to accelerate the   promoting diversity and has             Results
turnaround time on FOIA requests     undertaken a study of diversity
and to ensure that the FDIC can      within the OIG. We are currently        The Government Performance and
demonstrate good faith efforts in    preparing a report that will be         Results (Results) Act of 1993 was
responding to FOIA requests as       submitted to the House                  enacted to improve the efficiency,
promptly as possible.                Subcommittee on Veterans’ Affairs,      effectiveness, and accountability of
                                     Housing and Urban Development,          federal programs by establishing a
Our review showed that OES had       and Independent Agencies,               system for setting goals, measuring
made progress in improving the       Committee on Appropriations. We         performance, and reporting on
processing time for FOIA requests.   initiated this study in response to     accomplishments. Specifically, the
OES had adopted measures             language contained in the               Results Act requires most federal
designed to streamline and improve   Subcommittee's report on the fiscal     agencies, including the FDIC, to
the process. OES also reduced its    year 1999 appropriation.                prepare a strategic plan that broadly
backlog of outstanding FOIA                                                  defines the agencies’ mission and
requests and had undertaken          Our objectives were to (1) identify     vision, an annual performance plan
initiatives to address some of the   workplace diversity issues within       that translates the vision and goals
requirements of E-FOIA. However,     the OIG, (2) catalogue OIG              of the strategic plan into
OES still experienced delays in      initiatives taken to address the        measurable objectives, and an
responding to FOIA requests in       issues, and (3) develop suggestions     annual performance report that
1997 and the first half of 1998.     that could further advance the OIG      compares actual results against
Some of the delays were              to be an organization where every       planned goals.
unavoidable and were due to the      employee can excel and reach his
magnitude, sensitivity, or remote    or her full potential in assisting us   The Corporation’s strategic plan and
location of requested records.       to achieve our mission.                 annual performance plan lay out the
However, other delays were due to                                            agency’s mission and vision and
the following:                       To carry out the objectives, a          articulate goals and objectives for
                                     steering group of OIG executive         the FDIC’s three major program
• OES was not always timely in       management and a task group of          areas: Insurance, Supervision, and
 assigning FOIA requests to FDIC     OIG staff composed of diverse           Receivership Management. The
 divisions and offices for           representation including race,          plans focus on four strategic results
 responses,                          gender, grades, and organizational      that communicate desired
                                     components conducted the study.         outcomes identified for each
• FDIC divisions and offices took    The steering group provided             program area. The four strategic
 longer than OES’s prescribed time   guidance to the task group and          results are: (1) Insured Depositors
 to respond to FOIA requests, and    used the work of the task group         are Protected From Loss Without
                                     and other data to prepare a report.     Recourse to Taxpayer Funding,
• OES required more than its         The task group gave every OIG           (2) Insured Depository Institutions
 allotted time to review division    employee an opportunity to              Are Safe and Sound, (3) Con-
 and office responses for            express his or her views about          sumers’ Rights Are Protected and
 appropriateness and to prepare      diversity-related issues and actions    FDIC-Supervised Institutions Invest
 documents for release.              needed in the OIG. Approximately        in Their Communities, and
                                     80 percent of the staff participated    (4) Recovery to Creditors of
We made recommendations to           in individual or group meetings.        Receiverships Is Achieved.
improve the efficiency and           The FDIC's Office of Diversity and      Through its annual performance
effectiveness of the processes for   Economic Opportunity provided           reports, the FDIC will be
both original FOIA requests and      statistics on the OIG's workforce       accountable for reporting actual
FOIA appeals, ensure that FOIA       composition that we are using to        performance and achieving these
administrative files are complete,   prepare our report.                     strategic results, which are closely
and modify the FOIA tracking                                                 linked to the major issues




                                                     26
discussed in this semiannual report.   program outcomes described in          In addition, the OIG completed a
As required by the Results Act, the    their annual performance plan and      pilot review in November 1998 of
Corporation must submit its initial    (2) verification and validation of     an FDIC division’s systems used to
program performance report to the      selected data sources and              capture performance information
President and the Congress no          information collection and             and the procedures used to verify
later than March 31, 2000.             accounting systems that support        and validate performance data
                                       Results Act plans and reports.         reported in the Corporation’s annual
The Corporation has made               Findings and recommendations           performance plan and quarterly
significant progress in                from Results Act reviews would be      performance reports. The specific
implementing the Results Act and       included in each subsequent            review objective was to determine
will continue to address the           semiannual report. The Congress        the adequacy and reliability of
challenges of developing more          attaches great importance to           information systems and data
outcome-oriented performance           effective implementation of the        supporting DRR's receivership
measures, linking performance          Results Act and believes that          activity as reported in FDIC
goals and measures to strategic        Inspectors General have an             performance reports. An OIG
goals, and establishing processes      important role to play in informing    standard work program for
to verify and validate reported        agency heads and the Congress on       evaluating the adequacy and
performance data. As the General       a wide range of issues concerning      reliability of information systems
Accounting Office noted in its         efforts to implement the Results       and data supporting the
review of the Corporation’s 1998       Act.                                   performance results was also
Annual Performance Plan, the FDIC                                             developed. The program can be
is seriously committed to fulfilling   The FDIC OIG is fully committed to     used for similar Results Act-related
both the requirements of the           taking an active role in the           reviews.
Results Act and congressional          Corporation’s implementation of the
expectations that the plans inform     Results Act. In this regard, we        We found established goals,
the Congress and the public about      completed a number of initiatives in   targets, and performance indicators
the FDIC’s performance goals,          1998 related to providing oversight    for managing FDIC receiverships
including how the agency will          of the Corporation’s implementation    and information in FDIC's quarterly
accomplish those goals and             process. Although the FDIC is not      performance reports to show DRR's
measure the results. As of             an agency subject to the CFO Act,      progress in meeting those goals
February 1, 1999, the Corporation      we are developing a Results Act        and objectives. However,
had finalized and submitted its        review plan that establishes an        performance reporting could be
1999 performance plan to the           oversight strategy for future OIG      improved. We found a number of
Congress.                              work in the Results Act area.          reporting discrepancies in FDIC
                                       These initiatives and strategy are     quarterly performance reports. The
OIG Prepares Results Act               more fully described below.            discrepancies occurred because
Review Plan                                                                   DRR did not clearly communicate
On October 7, 1998, the House          In 1998, the OIG reviewed the          performance reporting criteria to
Leadership sent a letter to the        FDIC’s strategic and annual            DRR service centers, have service
Inspectors General of agencies         performance plans that were being      center staff confirm performance
directly subject to the Chief          revised and updated as part of the     results, or effectively use an
Financial Officers (CFO) Act           1999 planning cycle and provided       existing information system to
requesting that they develop and       comments to FDIC management            report termination activity.
implement a plan for reviewing their   regarding the draft plans’
agencies’ Results Act activities.      compliance with the Results Act.       DRR took actions to clarify
The Results Act review plan would      For the year 2000 and future           performance reporting criteria and
be submitted as part of the OIG’s      planning cycles, the OIG will          correct the discrepancies we
April 1999 semiannual reports to       continue its practice of providing     identified. As a result of our review,
the Congress (and updated annually     advisory services to management        DOF also established reporting
thereafter) and would examine          regarding the Corporation's Results    requirements for instances when
(1) agency efforts to develop and      Act plans and reports undergoing       division goals, measures, or
use performance measures for           development or revision.               reporting methodologies change to
determining progress toward                                                   preserve the historical continuity of
achieving performance goals and                                               performance reporting trends.




                                                       27
OIG Plans Future Results Act
                                       \
Strategies                             OIG,GAO Continue Collaboration on
For the future, the OIG is             Financial Statement Audit
developing a Results Act review
plan for the independent oversight
of the Corporation’s implemen-
tation of the Results Act. This plan        The OIG continues to work in partnership with the U.S.
consists of the following integrated        General Accounting Office (GAO) toward the goal of
strategies designed to help ensure          assuming complete responsibility for the FDIC annual
that the Corporation complies with          financial statement audit. The OIG experienced a shift in audit
the Results Act and has systems in          responsibilities for the 1998 audit. The OIG Dallas staff has
                                            assumed complete responsibility for auditing the
place to reliably measure its
                                            methodology for determining the estimated values of
progress toward achieving its               receivership assets, internal controls over receivership cash
strategic and annual performance            receipts and disbursements, and the FDIC’s oversight of
goals:                                      contractors who manage and dispose of receivership assets
                                            for the FDIC. The OIG Washington staff has assumed full audit
•Linking Planned Reviews to                 responsibility for cash and investments. This year the OIG
 GPRA. We will link planned                 staff planned the audit approach and methodology for these
 reviews to corporate strategic             areas, which were approved by GAO. GAO will rely
 and annual performance goals               completely on the OIG work for these key components of the
 and objectives and provide                 financial statement audit.
 appropriate Results Act coverage           The OIG is committed to the effort of assuming the duties of
 through audits and evaluations.            performing the annual FDIC financial statement audit and will
 As part of this strategy, the OIG          continue to allocate staff to ensure the successful transfer of
 has established specific goals in          this critical function.
 its own annual performance plan            Also, in connection with the government-wide consolidated
 to ensure OIG reviews are                  financial statement audit, this year the Inspectors General
 relevant and linked to corporate           certified for the first time the accuracy of their agency’s fiscal
 strategic goals.                           year financial data included in the government consolidated
                                            financial audits. The Inspectors General were also required to
•Targeted Verification Reviews.             submit an “agreed-upon audit procedures” report to the
                                            Department of the Treasury and GAO.
 We will maintain a continual
 program of independent reviews             To prepare the consolidated financial statements, the Treasury
 to evaluate the adequacy and               receives financial data from the agencies and enters the
 reliability of selected information        information in the Federal Agencies Centralized Trial Balance
 systems and data supporting                System (FACTS). Treasury then returns that data to the
                                            agencies for review and certification. The OIG team certified
 FDIC performance reports. As
                                            the accuracy of the FACTS data and issued the required report
 part of the pilot review discussed         by the March 3, 1999 deadline.
 above, the OIG developed a
 standard work program to
 conduct these evaluations.

•Advisory Comments. We will
 continue our practice of providing
 advisory comments to the
 Corporation regarding their
 update or cyclical preparation of
 strategic and annual performance
 plans and reports.




                                                   28
The OIG will continue to develop
its integrated oversight strategy so
that the OIG's Results Act-related
efforts fully conform to the spirit
and intent of the Act.

The OIG will also continue to
monitor and review legislation
proposed in the Congress to amend
the Results Act and will actively
participate through the President’s
Council on Integrity and Efficiency
and the inter-agency groups it
sponsors to refine appropriate OIG
Results Act roles, responsibilities,
and activities. The results of these
activities will be used, as
appropriate, to adjust the OIG
oversight strategy.




                                       OICM Pursues OIG-Identified Cash
                                       Management Issues

                                              Based on an October 1998 meeting where the OIG questioned
                                              the Legal Division’s compliance with the FDIC directive
                                              regarding cash, check, and wire transfer procedures, the
                                              Office of Internal Control Management (OICM) has taken this
                                              issue one step further by reviewing the current procedures
                                              and actual practices of all FDIC divisions. OICM’s goal is to
                                              work with each division/office to establish lockbox procedures
                                              for all remittances due the FDIC and strong internal controls
                                              when use of the lockbox is not feasible.
                                              In addition, OICM has developed and implemented a cash and
                                              cash equivalents (receipts) review program. This program
                                              tests the effectiveness of controls for receipt identification,
                                              segregation of duties, and implementation of policies and
                                              procedures.
                                              OICM will work with the Division of Finance on this effort and
                                              provide periodic updates to the OIG and the U.S. General
                                              Accounting Office as this review continues.




                                                      29
                                                               from further harm, and assist the
                                                               FDIC in recovery of its losses.
                                                               Another consideration in dedicating
                                                               resources to these cases is the
                                                               need to pursue appropriate criminal
                                                               penalties not only to punish the
                                                               offender but to deter others from
                                                               participating in similar crimes.

                                                               Joint Efforts

                                                               The OIG works closely with U.S.
                                                               Attorneys’ offices throughout the
                                                               country in attempting to bring to
                                                               justice individuals who have
      Investigations




                                                               defrauded the FDIC. The
                                                               prosecutive skills and outstanding
                                                               direction provided by Assistant
                       The Office of Investigations is         United States Attorneys with
                       responsible for carrying out the        whom we work are critical to our
                       investigative mission of the OIG.       success. The results we are
                       Staffed with agents in Washington,      reporting for the last 6 months
                       D.C., Atlanta, Dallas, Chicago, and     include cases prosecuted by U.S.
                       San Francisco, the Office of            Attorneys’ offices in the Middle
                       Investigations conducts investi-        District of Florida, the Northern and
                       gations of alleged criminal or          Southern Districts of Texas, the
                       otherwise prohibited activities         Northern and Central Districts of
                       impacting the FDIC and its              California, the District of Maine, the
                       programs. As is the case with           District of Massachusetts, and the
                       most OIG offices, Office of             District of Columbia.
                       Investigations agents exercise full
                       law enforcement powers as special




Joint Efforts             Results

                       deputy marshals under a blanket         Support and cooperation among
                       deputation agreement with the           other law enforcement agencies is
                       Department of Justice (DOJ). The        also a key ingredient for success in
                       Office of Investigations' main focus    the investigative community. We
                       is on investigating criminal activity   frequently “partner” with the
                       that may harm or threaten to harm       Federal Bureau of Investigation
                       the operations and integrity of the     (FBI), the Internal Revenue Service
                       FDIC and its programs. In pursuing      (IRS), the U.S. Secret Service, and
                       these cases, our goal, in part, is to   other law enforcement agencies in
                       bring a halt to the fraudulent          conducting investigations of joint
                       conduct under investigation,            interest. We also participate
                       protect the FDIC and other victims      actively on a number of task forces.

                                                                The New England Bank Fraud Task Fcrce has contributed
                                                                significantly in the fight against financial institution fraud.
                                                                Pictured above from left to right are:
                                        30                      William Stapleton, Task Force Director; Dana Bedwell, OIG;
                                                                Paul Andrews, Task Force Attorney; Gary Sherrill, OIG.
Among these task forces is the
New England Bank Fraud Task
Force (NEBFTF), which was
established by DOJ in 1991 to
combat fraud against federally
insured financial institutions.
Currently, one of our agents serves
full time on the NEBFTF, while
others are routinely assigned to
work cases arising from it. The
NEBFTF is scheduled to disband
later this year and intensive efforts
are underway to complete work on
all substantive cases remaining.
Under the guidance of a senior
DOJ official and staffed by highly
skilled and experienced DOJ
prosecutors, the NEBFTF has been
highly effective in prosecuting         Investigative Statistics
individuals whose fraud schemes
contributed to the failures of
financial institutions, as well as in
pursuing those who have                    Judicial Actions:
defrauded institutions still in              Arrests                                            4
operation.                                   Indictments/Informations                           9
                                             Convictions                                       10
We have also dedicated resources
this period to work being conducted        Actions Involving FDIC Employees
by the newly formed Philadelphia           as a Result of Investigations:
Bank Fraud Task Force. Additionally,         Terminations                                       4
we have recently joined the Internet         Suspensions                                        1
Fraud Task Force that was                    Resignations/Retirements                           2

                                           OIG Investigations Resulted in:
                                             Fines of                                  $ 221,600
                                             Restitution of                                261,516
                                             Monetary Recoveries of                      3,239,500
                                             Total                                     $ 3,722,616

                                           Cases Referred to the
                                           Department of Justice (U.S. Attorney)               28
established by the Securities and
Exchange Commission’s Office of            Referrals to:
Internet Enforcement and the FBI to
                                             FDIC Management                                    7
identify and investigate potentially
fraudulent activities on the Internet
relating to banking and securities         OIG Cases Conducted Jointly with Other Agencies     39
issues.

Our work with task forces and
other agencies has been an integral
component of our investigative
initiatives targeting fraud by FDIC




                                                31
debtors. Our proactive work in this      individuals subject to court-ordered    identify areas requiring Office of
area is designed to identify and         restitution. We have reported past      Investigations attention.
pursue cases in which FDIC               successes working with JET in
debtors have concealed assets or         prior semiannual reports. For this      Results
committed other fraud in                 period, our work with JET resulted
attempting to avoid repayment of         in the first ever revocation of an      Over the last 6 months the Office
their obligations to the FDIC. In        individual’s probation for failure to   of Investigations opened 35 new
developing these cases, we have          pay restitution.                        cases and closed 36 cases, leaving
been working closely with the                                                    146 cases underway at the end of
Office of the United States Trustee      OIG Office of Investigations            the period. Our work during the
to identify FDIC debtors who have        managers and agents nationwide          period led to indictments or
fraudulently filed for bankruptcy in     also regularly attend meetings,         criminal charges against
an attempt to escape their               provide assistance, and participate     9 individuals, and 10 defendants
obligation to pay. We have also          with a number of other task forces      were convicted during the period.
been participating with the U.S.         and working groups designed to          Criminal charges remained pending
Trustee Bankruptcy Fraud Task            identify and pursue financial           against 60 individuals as of the end
Forces in Phoenix and Tucson,            institution fraud. These groups         of the reporting period. Fines,
Arizona, in connection with these        include the U.S. Attorneys’ office      restitution, and recoveries
efforts.                                 Bank Fraud Working Group in Los         stemming from our cases totaled
                                         Angeles, California, the U.S. Postal    over $3.7 million. During the period
Our proactive work involving FDIC        Inspection Service Financial Crimes     12 civil settlements were reached,
debtors includes efforts to identify     Task Force in Dallas, Texas, the        with 34 suits pending at the end of
and pursue individuals subject to        U.S. Secret Service Metro               the reporting period. Some of the
court-ordered restitution who have       Alien/Financial Crimes Task Force in    case highlights resulting from our
concealed and/or misrepresented          Dallas, Texas, and the Financial        investigative activity over the last
their assets to avoid making             Fraud Task Force in Tampa, Florida.     6 months are as follows:
payment. We have been working            Our participation in these and other
closely with the FDIC’s Division of      multi-agency working groups             Former Officers of Famous
Resolutions and Receiverships, the       demonstrates the importance we          Kentucky Horse Farm Indicted in
Financial Litigation Units of U.S.       place on working with our law           Connection with Alleged Scheme
Attorneys’ offices, and U.S.             enforcement colleagues to               to Defraud Bank




Probation officials on this project,     maximize efficiency and produce         Two former executives of a famed
which was undertaken after earlier       results.                                Kentucky thoroughbred horse farm
investigations in the restitution area                                           that went bankrupt 8 years ago
led to substantial recoveries for the    Internal cooperation is also            were indicted this period on an array
FDIC. Our work with the Judicial         important in achieving results. The     of charges stemming from an
Enforcement Team (JET), a task           OIG's Office of Investigations and      alleged scheme to defraud the now
force created by the Financial           the Office of Audits coordinate to      defunct First City Bancorporation of
Litigation Unit of the U.S.              identify matters that warrant our       Texas. As outlined in the indictment
Attorneys’ office, District of           combined resources. OIG                 returned by a federal grand jury in
Massachusetts, has been partic-          representatives also meet period-       Houston, Texas, in December 1998
ularly successful in this area. The      ically with FDIC managers from          and unsealed in March 1999, the
group was formed for the purpose         various divisions to coordinate on      farm’s president conspired with the
of pursuing hidden assets of             matters of mutual concern and to        chief financial officer to pay a




                                                          32
$1.1 million bribe to a former           most heavily insured thoroughbred       The investigation regarding First
director of First City to obtain $65     in history. After his death, the farm   City, which we joined in progress
million in loans for their financially   collected $36.5 million in insurance    after it was first initiated by the
troubled horse farm. Among other         claims. Over $16 million of those       FBI, earlier led to the conviction of
racing greats, the farm once housed      funds went to First City. This          seven individuals on fraud-related
Alydar, the famous stallion who          phase of our investigation earlier      charges. One of those convicted
came in runner-up to Affirmed in         led to the conviction of a stable       was the First City vice chairman
each of the 1978 Triple Crown            groom who was present at the            who was tried and convicted twice
races. Alydar, who later became          farm the evening Alydar suffered        in connection with fraudulent
one of the most valuable sires in        his leg injury. The groom was           activity at the bank. He is still
thoroughbred history, was used as        found guilty of lying to a grand jury   serving a sentence of almost
collateral for over $50 million in       regarding the circumstances             22 years. Restitution orders
loans that the farm obtained from        surrounding Alydar’s death. As a        stemming from the First City
First City. The indictment alleged       result, he was sentenced to serve       investigation now total over
that the two farm executives, along      5 months incarceration, followed by     $10 million. Fines of $900,000
with the former First City director,     5 months of home confinement.           have been imposed.
intentionally failed to disclose to      He was also sentenced to serve
bank officials that the director had a   2 years of probation.
valuable lifetime breeding right in
                                                                                       The death of the race horse Alydar and the
Alydar. Further, the farm’s president                                                  demise of the Kentucky stables that housed
allegedly failed to disclose that the                                                  him are not just the subjects of a criminal
farm had sold and transferred more                                                     investigation. A book, as well as a number
than 15 lifetime breeding rights in                                                    of magazine feature stories, have been
Alydar. The former director allegedly                                                  dedicated to the mystery surrounding the
                                                                                       racing legend’s untimely death.
used his position with the bank to
facilitate the approval of
disbursements of loan proceeds and
extensions of credit to the horse
farm. He also allegedly impeded
bank officers’ attempts to collect
from the farm.




                                           Photo of Alydar’s stall.
The latest charges in the case stem
from our ongoing investigation with
the FBI and the Criminal
Investigations Division of the IRS
into loan activities involving First
City, which failed in 1992. Part of
our investigation centers on the
circumstances surrounding Alydar’s
untimely death in 1990. Alydar was
euthanized after sustaining a                                                          The investigation of fraud at the First City
broken leg while housed in his stall                                                   Bancorporation of Texas, Inc., has led to the
                                                                                       conviction of seven individuals, restitution
at the Kentucky horse farm. At the                                                     orders of over $10 million, and fines of
time of his death, Alydar was the                                                      $900,000.




                                                                  33
                                                    Civil Case Leads to Recovery            companies were allegedly used to
                                                    from Contractor                         overbill the FDIC and RTC. In
                                                    A couple who provided auction           some instances the companies
                                                    services to the FDIC and the            were found to have charged as
                                                    former Resolution Trust                 much as $80 per hour for work that
                                                    Corporation (RTC) agreed to pay         actually cost $24 per hour.
                                                    the government $1.6 million to
                                                    settle a law suit brought against       The FDIC and RTC paid the shell
                                                    them under the False Claims Act.        company more than $1 million in
                                                    As part of the settlement, the          commissions, the equivalent of
                                                    couple also agreed to drop a            about 1 percent of the proceeds
                                                    lawsuit they had filed against the      from the auctions. The firm also
                                                    FDIC that exposed the Corporation       received more than $2.5 million for
                                                    to potential liability in excess of     expenses it claimed to have
                                                    $366,000.                               incurred in connection with the
                                                                                            auctions. Under the False Claims
                                                    The suit was filed by the United        Act, the defendants were
                                                    States Attorneys’ office for the        personally liable for up to three
                                                    Central District of California based    times the nearly $3.6 million paid
                                                    upon evidence developed during an       the shell company by the FDIC and
                                                    OIG investigation indicating that       RTC. Had the couple gone to trial,
                                                    the couple had fraudulently             they also could have faced an
                                                    obtained contracts with the FDIC        additional $5 million penalty under
                                                    and RTC and had overbilled both         the provisions of the Financial
                                                    agencies. As described in the           Institutions Reform Recovery and
                                                    lawsuit, the couple allegedly           Enforcement Act of 1989 for
                                                    obtained lucrative contracts under      making false statements designed
                                                    the FDIC and RTC Minority and           to influence the RTC and FDIC.
                                                    Women Owned Business program
                                                    by falsely certifying that a company    To date, the couple has paid
                                                    established by the husband was          $1 million of the agreed upon
                                                    owned and controlled by the wife.       $1.6 million settlement. The
The outstanding effots of Assistant U.S. Attorney   Our investigation disclosed that the    remaining $600,000, plus interest
(AUSA) Mark Labaton led to a $1.6 million civil     company was in fact a “shell” for       of more than $40,000, is to be paid
recovery from an FDIC contractor. Pictured at
top, left to right: Jim Connolly, OIG; AUSA Mark
                                                    the husband’s auction firm. Based       over the next 2 years and is
Labaton; U.S. Attorney Alejandro N. Mayorkas;       upon the false representations          secured by homes and property
Roy Nilsen, OIG.                                    made to the FDIC and RTC, the           owned by the couple in California.
Also, pictured here are properties seized in        shell firm received contracts to        As part of the settlement, property
connection with the OIG’s investigation of a        perform more than a dozen               previously seized by the
couple accused of fraudulently obtaining            auctions. The auctions, conducted       government under a seizure order
contracts with the FDIC and RTC and overbilling     in California, Texas, Louisiana,        will be released.
both agencies.
                                                    Massachusetts, Connecticut, and
                                                    New Jersey, were for the purpose        Former FDIC Contractor Agrees
                                                    of liquidating property that the        to Pay $600,000 Settlement to
                                                    FDIC and RTC obtained when the          FDIC
                                                    agencies took control of failed         Following our investigation into
                                                    banks and savings and loans.            allegations made in a “qui tam”
                                                                                            suit, a settlement was negotiated
                                                    The civil complaint also alleged that   under which an FDIC contractor is
                                                    the couple used subsidiaries of the     to pay the FDIC $600,000. (A “qui
                                                    auction company to perform work         tam” suit is a civil action brought
                                                    related to the auctions and failed to   by a private party under the False
                                                    identify these subcontractors as        Claims Act, which the government
                                                    “related entities.” The subsidiary      may elect to join as a complainant.



                                                                     34
If the government proves the case,      The defendant, a former
the party initiating the suit may be    Massachusetts developer, had
entitled to share in any resulting      been sentenced in 1995 to serve
monetary recoveries.) Over              24 months in prison and was
$400,000 of the funds have been         ordered to pay the FDIC
received by the FDIC. The               $10.9 million in restitution for
remainder of the funds are being        defrauding the former Bank of New
held pending resolution of claims       England. Her conviction was in
made on those funds by the two          part based on her use of
brothers who brought the qui tam        $28 million in loan proceeds to
suit. In their complaint, the           support her extravagant lifestyle.
brothers alleged that the FDIC had      She used loan proceeds to rent a
been defrauded by a bank in             luxury apartment at the Boston Ritz
Maine. The Maine bank had               Carlton and to buy a Ferrari, a          Shown below is a storage space that a former
entered into an assistance              Lincoln Continental, jewelry, and        Massachusetts developer rented to attempt to conceal
agreement with the FDIC under           boats.                                   many valuable assets from the courts and the FDIC. A few
which the bank was responsible for                                               of those assets, works of art, are pictured here.
operating another bank on behalf of     After serving her 2-year sentence,
the FDIC. The brothers alleged          the developer was placed on
that the defendant bank falsified       probation. During that time she
documentation in order to require       has failed to make any restitution
the FDIC to repurchase the              payments to the FDIC,
equivalent of $1.6 million of their     representing to her parole officer
unsecured promissory notes. The         that she was indigent and unable
brothers had defaulted on the           to work because her spouse was
notes, and virtually all of their       terminally ill and blind. Our investi-
assets had been sold. Although          gation, which is still underway,
our investigation developed             suggests otherwise—evidence
evidence to support the allegations,    developed during our investigation
the contractor made no admissions       led to a probation revocation
when entering into the settlement       hearing. As disclosed at the
agreement.                              hearing, our investigation
                                        determined that the developer lied
Restitution Case Leads to               to probation officials about where
Revocation of Probation                 she lived. She falsely claimed to
A milestone was reached this            be living in a spare bedroom of a
period in an ongoing restitution        friend's house. In order to fool
investigation we are conducting         probation officials during their
with the Judicial Enforcement           home visits, she arranged for her
Team in the U.S. Attorneys’ office      friend to display photographs of the
for the District of Massachusetts.      defendant’s family in the spare
The case marks the first time a         room. In reality, the developer was
judge has ever revoked an               living in a luxury condominium in an
individual’s probation as a result of   affluent Connecticut suburb which
failure to pay court-ordered            she had leased under an assumed
restitution. The judge did so based     name. She also established a bank
on evidence developed in our case       account and secured a post office
to date, indicating that the            box under an assumed name,
defendant had misrepresented her        neither of which was reported to
ability to make restitution             probation officials. Further, the
payments to the FDIC and had            woman maintained a number of
violated the terms of her probation.    credit cards that she failed to
                                        disclose to probation officials.
                                        The investigation also developed



                                                         35
evidence that the woman has            the dismissal of a bankruptcy filing    operated television stations in the
traveled extensively in violation of   by an individual subject to a           District of Columbia and
her parole, which requires that she    criminal restitution order. Our         Massachusetts. The other
remain in the state of Connecticut.    ongoing investigation, which            defendant served as the chief
For instance, we found that she        focuses on the subject’s alleged        financial officer for the corporation.
had traveled to an exclusive           concealment of assets, is being         Our investigation found that the
Bahamas resort for her daughter’s      conducted under the guidance of         two were responsible for the
wedding. During their trip to the      the Financial Litigation Unit of the    submission of false tax returns,
Bahamas, her purportedly blind         U.S. Attorneys’ office for the          understating more than $162,000 in
spouse was observed driving a golf     Northern District of California. In     income over a 3-year period.
cart around the island. Evidence       1987, the subject and his brother
has also been produced indicating      pled guilty to misapplying funds        Our investigation originated as part
that the developer has other assets    and overvaluing securities to           of an Independent Counsel investi-
she has not reported. For instance,    Golden Pacific Savings Bank. As a       gation exploring an alleged conflict
the developer's monthly rent           result, he served 5 years in a          of interest involving the television
expenses alone exceed the amount       federal correctional institution and    broadcasting company’s CEO and a
of her husband's social security       was ordered to make restitution of      former cabinet official. Following
check, which she reported to be        over $6.7 million to the FDIC. A        the cabinet official’s death, the
her sole source of income.             balance of over $4.8 million of that    investigation of the television
Additionally, as described at the      debt still remains. In December         broadcast company officers
probation revocation hearing, our      1998 the subject filed a petition for   continued as part of a Justice
investigation developed evidence       relief under Chapter 13 of the          Department Task Force. Our parti-
that the developer, despite her        United States Bankruptcy Code.          cipation in the investigation was
claims of indigency, had attempted     During the course of our investi-       initiated based on allegations that
to open an interior decorating and     gation, the OIG determined that the     the officers of the broadcasting
furniture store in Connecticut,        subject had failed to list the          business had concealed and
using friends to mask her              restitution debt in his petition for    diverted assets from the
ownership. She allegedly offered       relief. He also failed to notify the    corporation, which was a debtor to
to supply her friends with all the     U.S. Attorneys’ office and the FDIC     the FDIC. The corporation had
merchandise necessary to open the      of the filing of the petition. Based    defaulted on a $21 million loan
store. She indicated that it would     on this information, the U.S.           from a Texas savings and loan,
be necessary to lease a large space    Attorneys’ office filed a motion to     which later failed. As a result, the
for the store to accommodate all of    dismiss the petition, and the           FDIC assumed the loan. As part of
her furniture.                         Bankruptcy Court dismissed the          her plea agreement, the
                                       case.                                   broadcasting company’s CEO
Based on the evidence presented                                                admitted that she had made false
at her probation revocation hearing,   Officers of Texas Corporation in        statements to the FDIC by claiming
the judge revoked the developer’s      Debt to FDIC Plead Guilty to Tax        she was receiving no salary from
probation and remanded her to a        Fraud Charges                           the corporation when in fact she
federal halfway house for              Our participation with the IRS and      was drawing $250,000 per annum
6 months, followed by 90 days of       the FBI on a Justice Department         in salary compensation.
electronically monitored home          Task Force culminated this period
detention. She was also ordered to     with guilty pleas of two defendants     Charges Brought in Independent
immediately obtain employment          who were earlier indicted on            Counsel Investigation Stem in
and commence payment of $300           charges of conspiring to defraud        Part from Alleged False
per month in restitution to the        the FDIC and IRS. Under the terms       Statements to OIG Agents
Corporation.                           of a plea agreement, the                In November 1998, the Grand Jury
                                       defendants ultimately pled guilty to    in the United States District Court
OIG Investigation Thwarts              three counts of aiding and assisting    for the District of Columbia indicted
Debtor’s Attempt to Declare            in the preparation and submission       former Rose Law Firm partner and
Bankruptcy                             of false federal tax returns. One of    former Assistant Attorney General
Information developed by the OIG       the defendants was the chief            of the United States, Webster L.
in connection with another ongoing     executive officer (CEO) of a Texas      Hubbell, on 15 counts, including
restitution case led this period to    corporation that owned and              corruptly impeding the functions of




                                                        36
the RTC and FDIC, defrauding the        made to the FDIC prior to
RTC and FDIC, making false              sentencing.
statements to the FDIC and RTC,
and committing mail fraud. The          Former FDIC Attorney Placed on
indictment alleges that Hubbell         Probation After Making
withheld and concealed material         Harassing Calls from FDIC
facts from the FDIC and RTC to          Telephones
obtain and maintain employment          As a result of another employee
contracts for legal work from those     investigation conducted jointly with
agencies and that he later falsified    the Long Beach, California, Police
and concealed from agents and           Department, a former FDIC senior
investigators of the FDIC and RTC       attorney was sentenced to serve
information pertaining to the Rose      3 years of probation after pleading
Law Firm’s representation of            no contest to violation of a
Madison Guaranty Savings and            California state criminal statute
Loan Association. Portions of the       governing telephone calls made
indictment arose out of statements      with the intent to annoy. The
made by Mr. Hubbell to FDIC and         former employee was also fined
RTC special agents during the OIG       $3,600 and was ordered to perform
investigations into potential           150 hours of community service,
conflicts of interest in the Rose       continue psychological counseling;
Law Firm’s representation of the        and write a letter of apology to a
FDIC and RTC during the late            California rape crisis hotline.
1980s and early 1990s. It is            Allegations that the attorney had
currently expected that the case        placed at least 24 harassing calls to
will be tried during the summer of      the hotline while using FDIC
1999.                                   telephones prompted our investi-
                                        gation. The employee resigned
Former FDIC Employee                    from the FDIC in the midst of the
Sentenced for Embezzling Funds          investigation.
After earlier pleading guilty to
embezzlement, a former FDIC             Misconduct Investigation Leads
employee was sentenced in the           to Employee Dismissals
Northern District of Texas to serve     In keeping with its mission to          brochure
18 months imprisonment, followed        prevent fraud, waste, and abuse,
by 3 years of supervised release.       the OIG, in addition to its criminal
Our investigation found that while      work, is required to conduct
employed by the FDIC, the               administrative investigations of
defendant had embezzled over            employee misconduct when the
$350,000 from savings and loan          alleged offense is serious enough
association pension plans in Texas      and the potential consequences
and Oklahoma. The FDIC had              grave enough to warrant our
become receiver for the pension         involvement. One such investi-
plans funds as a result of savings      gation, conducted at the request of
and loan failures. The defendant        FDIC management, led this period
used the funds to purchase              to the dismissal of four FDIC
personal items including a              employees. The OIG’s investi-
residence and a BMW automobile.         gation determined that the four had
During the course of our investi-       engaged in illegal drug activity.
gation, the car was turned over to      Dismissal charges against the
the government and the home was         employees also cited their history
sold so that the proceeds could be      of leave abuses.
applied to restitution, a significant
portion of which the defendant




                                                         37
                                                                   when the FDIC has focused its
                                                                   work on new challenges facing the
                        This year marks the 10th                   American banking industry at the
                        anniversary of the FDIC Office of          dawn of a new century. The
                        Inspector General, which was               banking industry has emerged from
                        established on April 17, 1989              the crisis at the beginning of the
                        pursuant to the Inspector General          decade to experience unprece-
                        Act Amendments of 1988. Prior to           dented prosperity. Given the
                        establishing the OIG, audit and            record earnings of commercial
                                                                   banks and the low rate of bank
     OIG Organization


                        investigative functions were
                        performed by the Office of                 failures over the past several years,
                        Corporate Audits and Internal              the FDIC has changed its focus
                        Investigations. Until 1996, the            from handling and resolving failed
                        Inspector General was appointed            institutions to monitoring and
                        by the Chairman of the FDIC. The           assessing risks in insured
                        Resolution Trust Corporation               institutions. As the banking crisis
                        Completion Act, enacted on                 receded, the OIG responded by
                        December 1, 1993, provided that            broadening its audit and
                        the FDIC Inspector General be a            investigative focus and becoming
                        presidential appointee confirmed by        more proactive. The office also
                        the Senate.                                sought opportunities to engage in
                                                                   collaborative efforts with other
                        A Decade of Evolution                      corporate offices, Offices of
                                                                   Inspector General, and law
                        Over its 10-year existence, the OIG        enforcement agencies.
                        has responded to a myriad of
                        changing issues and challenges             OIG Increasingly Focused on
                        facing the FDIC, from managing             Corporate Goals and Partnerships
                        and resolving a significant banking
                        crisis to addressing emerging risks        Over the years, the OIG has




                            OIG Increasingly Focused on
A Decade of                 Corporate Goals and                 OIG Launches Learning
Evolution                   Partnerships                        Organization Concept

                        in an increasingly complex banking         continued to look for new ways to
                        industry. From 1980 through 1994,          add value to the Corporation’s
                        the FDIC managed the failures of           mission. Our current strategic
                        1,617 banks; during that time, in          goals, objectives, and operating
                        1988, the insurance fund suffered a        principle are intended to provide a
                        $4.2 billion loss, the largest in its      value-added focus to the
                        55-year history. Throughout that           Corporation and are directly linked
                        time the OIG focused heavily on            to the FDIC’s mission, strategic
                        liquidation activities and the FDIC’s      goals and objectives, and operating
                        Division of Accounting and                 principle. In recent years, the OIG
                        Corporate Services. The middle             has conducted its audits and
                        and later 1990s marked a time              evaluations in the following seven




                                          38
      strategic areas that closely parallel
      corporate operations:

      •Supervision and Consumer
       Affairs;

      •Asset Management and
       Liquidation;

      •Award, Administration, and
       Oversight of Contracts and
       Agreements;




                                                                              October 1998 –
                                                                              March 1999
      •Financial Accountability and
       Internal Controls;

      •Financial and Management
       Information Systems;

      •Deposit Insurance; and
                                              Table 1
      •Corporate Activities and               Significant OIG Achievements
       Administration.
                                                 $ millions
      In addition, OIG investigations have
      sought to uncover and investigate          Audit Reports Issued                                 28
      criminal conduct that could harm or        Questioned Costs and Funds Put to Better Use      $ 2
      threaten the operations and                Investigations Opened                                35
      integrity of the FDIC and its              Investigations Closed                                36
      programs.                                  OIG Subpoenas Issued                                 14
                                                 Convictions                                          10
                                                 Fines, Restitution, and Monetary Recoveries       $ 3.7
                                                 Evaluations Initiated                                 7
                                                 Evaluation Reports Issued                             5
                                                 Hotline Allegations Referred                         13
                                                 Allegations Substantiated                             2
                                                 Allegations Closed                                   24
Organization                      Results        Proposed Regulations Reviewed                         6
                                                 Proposed FDIC Policies Reviewed                      17
      The OIG has adopted a spirit of            Responses to Requests and Appeals
      partnership in conducting its work.        Under the Freedom of Information and Privacy Acts    21
      In this spirit, the office has worked
      diligently to build strong alliances
      with the FDIC’s divisions and
      offices and the FDIC Audit
      Committee. In partnering with the
      FDIC to address current challenges,
      the OIG attempts to assist
      management in resolving issues
      and identify corporate vulnera-
      bilities that the OIG must address




                                                     39
to meet the OIG’s mission under           Inspector General actively partic-        management. The plan contains
the Inspector General Act.                ipates in professional organizations      five goals that focus on the OIG’s
                                          including the President’s Council on      core mission activities of audits,
The OIG has also continued its            Integrity and Efficiency on which he      evaluations, and investigations by
strong cooperative relationships          serves as chairman of the Audit           adding value to the Corporation,
with other agencies’ Offices of           Committee, the Financial                  expanding the breadth of the OIG’s
Inspector General, law enforcement        Institutions Regulatory Agency            contributions, emphasizing
agencies, professional organi-            Inspectors General Group, the AGA,        communications with our
zations, and the U.S. General             the IIA, and the Intergovernmental        stakeholders, and increasing the
Accounting Office. We have sought         Audit Forum.                              efficiency of OIG internal
opportunities to work with the                                                      operations. In keeping with the
President’s Council on Integrity and      Our partnerships and collaboration        spirit of the Government
Efficiency, the Executive Council on      with the Corporation are reflected in     Performance and Results Act of
Integrity and Efficiency, and the         the OIG mission and vision                1993, the plan also includes goals
Federal Financial Institutions            statements and in our planning for        that commit the OIG to the
Examination Council on several joint      key activities and operational            continued development of
projects. These efforts are geared        processes. To that end, we                performance indicators that better
toward sharing ideas and                  continue to participate on FDIC task      measure the impact and results of
capitalizing on the collective            forces to address critical issues         OIG work.
expertise of colleagues in other          facing the Corporation and review
Offices of Inspector General, partic-     legislation, regulations, and             OIG Launches Learning
ularly those in other federal financial   proposed corporate policies that          Organization Concept
regulatory agencies. OIG staff            affect the FDIC’s programs and
participate in a variety of profes-       operations.                               In keeping with our performance
sional organizations, such as the                                                   goals, the OIG is committed to
Association of Government                 The OIG’s annual performance plan         being a learning organization in
Accountants (AGA), the Institute of       continues to reflect the OIG’s            which we continuously examine our
Internal Auditors (IIA), the American     emphasis on adding value to the           products and services, processes
Institute of Certified Public             Corporation and doing work that is        and operations, and working
Accountants, and internal                 responsive and relevant to the FDIC       relationships. During this reporting
conferences. In addition, the             Chairman, Congress, and corporate         period we launched the learning




                                                                                  Four Inspectors General have played a key role in the evolution of
                                                                                  the FDIC OIG over the past 10 years. They are Robert D. Hoffman;
                                                                                  James A. Renick; John J. Adair (from the former Resolution Trust
                                                                                  Corporation); and Gaston L. Gianni, Jr.




                                                          40
                                                                                    October 1998 –
                                                                                    March 1999
organization initiative and have
made it a central theme of an OIG
conference planned for 1999. We
began a process of self-analysis by
gathering data about our operations
and analyzing it to target areas for
improvement. We completed the
following four surveys during the         OIG Assistance to FDIC Management
reporting period, and various groups
within the OIG are now analyzing
the data:
                                            ●   Participated on FDIC Y2K Steering Committee with recommendation that
• OIG management perceptions of                 the Y2K Oversight committee develop a corporate-wide Business
  our organization’s mission, role,             Continuity Plan using the U.S. General Accounting Office’s guidelines for
  structure, work processes, and                Y2K business continuity planning. This recommendation resulted in the
  work products;                                chairman of the Y2K Steering Committee’s request for the OIG to
                                                participate in the FDIC’s Business Continuity Working Group and, in this
• Internal client satisfaction;                 capacity, review and advise in the committee’s development of the
                                                broader FDIC Business Continuity Plan.
• External client satisfaction; and         ●   Provided the Division of Supervision with five best practice suggestions
                                                to enhance the quality controls over and consistency of approach for the
• Diversity within the OIG.
                                                Corporation’s Y2K examination process.
Organization                                ●   Continued to advise and consult with FDIC management regarding
                                                required documents and activities under the Government Performance
To meet its core responsibilities               and Results Act.
under the Inspector General Act,
the OIG maintains a compre-                 ●   Provided input to the Division of Administration's Acquisition and
hensive, nationwide structure for               Corporate Services Branch (ACSB) on various administrative issues,
auditing, investigating, and                    which ACSB used in its decision-making process, including: suggestions
performing reviews of FDIC                      on how to improve the food services contract, which were used to
programs and operations. This                   modify the current contract, and comments on the Draft Occupational
structure is based on the functional            Health and Building Environmental Monitoring Service Request for
responsibilities legislated by the              Proposal (RFP), which were used by FDIC in preparing the RFP.
Inspector General Act of 1978.
                                            ●   Participated in a meeting of the Information Technology Technical
The Office of Audits performs full-             Committee to discuss certain recommendations from a recently
scope audits and reviews of                     completed OIG audit of FDIC’s Time and Attendance Processing System
corporate and receivership activities           Development Project and provided recommendations related to the
including any residual Resolution               approval process for initiating system development projects and for
Trust Corporation matters. Audits               continuing projects that have significantly departed from planned
are conducted in the headquarters               budgets or milestones.
or field offices, various sites
nationwide, or FDIC contractors’            ●   Participated in meetings with the FDIC Diversity Steering Committee to
offices. The Office of Audits                   establish a link with the OIG’s diversity efforts.
ensures compliance with applicable
professional audit standards,
                                            ●   Advised General Counsel that the remittance processing practices
including those established by the              followed by the Professional Liability and Legal Operations Sections
Comptroller General of the United               contained potentially serious internal control weaknesses and conflicted
States.                                         with corporate policy.

The OIG also performs quick, short-
term evaluations of specific FDIC
operations or activities as a result of




                                                     41
                                                                                               October 1998 –
                                                                                               March 1999
OIG Hotline referrals or requests       OIG Internal Management Initiatives
from the FDIC Board of Directors,
the Congress, or senior FDIC
managers. The Office of
Congressional Relations and                 ●   Launched “Learning Organization” concept within the OIG.
Evaluations plays a key role in this
regard.                                     ●   Completed external survey of client satisfaction with OIG operations and processes.

The Office of Investigations                ●   Conducted internal customer satisfaction surveys of activities of the OIG’s Office of
carries out a comprehensive                     Quality Assurance and Oversight, Counsel's office, and Office of Management and
nationwide program for the                      Policy.
prevention, detection, and investi-
gation of criminal or otherwise             ●   Completed internal study to identify diversity-related issues in the OIG and to
prohibited activity affecting the               develop an action plan addressing the issues.
FDIC or its programs by FDIC                ●   Initiated planning for the first OIG-wide conference in the fall of 1999.
employees, contractors, vendors, or
other individuals or entities. The          ●   Initiated a quality assurance review of the Office of Investigations.
office maintains close and
continuous working relationships            ●   Issued Annual Audit Plan for 1999.
with the U.S. Department of
Justice, the Federal Bureau of              ●   Continued participation in inter-agency Government Performance Results Act
Investigation, the U.S. Secret                  Interest Groups sponsored by PCIE and U.S. OPM to share ideas and best practices
Service, other Offices of Inspectors            on Results Act implementation.
General, and state and local law
enforcement agencies.                       ●   Submitted FY2000 budget request to the House Subcommittee on VA, HUD, and
                                                Independent Agencies, Committee on Appropriations.
The Counsel to the Inspector
General provides independent legal
                                            ●   Implemented OIGNet Intranet web site to keep OIG staff informed about internal
services for the OIG that                       OIG events, issues, and concerns.
encompass every facet of OIG                ●   Participated with three other IG offices (Department of the Treasury, Board of
operations. Key activities include              Governors of the Federal Reserve System, and National Credit Union
conducting legal research and                   Administration) on inter-agency task force reviewing the FFIEC’s Training Program.
writing opinions; preparing
subpoenas; providing supportive             ●   Published OIG informational brochure entitled FDIC-Office of Inspector General, Get
advice and counsel on audit,                    to Know Us! that provides an overview of OIG functions, goals, and philosophy.
investigative, and management-
related topics; reviewing proposed          ●   Developed presentational materials entitled “Building Communication Throughout
legislation and regulations affecting           the Audit Process” to share with corporate auditees.
the FDIC; conducting litigation; and
processing requests and related             ●   Initiated study to determine whether opportunities exist for improving the value of
appeals under the Freedom of                    training to the OIG.
Information Act and the Privacy Act.

The Office of Management and            this office manages the OIG Hotline              the internal coordination and
Policy manages essential OIG            and coordinates the OIG’s                        external oversight of internal
business activities such as budget      comments on draft corporation                    control activities under the Chief
and financial management, contract      policies and procedures.                         Financial Officers Act and the
administration, human resource                                                           Federal Managers Financial
management, employee                    The Office of Quality Assurance                  Integrity Act, and coordinating the
development and training,               and Oversight is responsible for                 OIG’s strategic and annual
information systems development,        maintaining quality assurance                    performance planning processes
the OIG’s computer network, and         programs for OIG activities,                     under the Government
the coordination of office-wide         performing external quality                      Performance and Results Act.
policy development. In addition,        assurance reviews of other OIGs,




                                                             42
                                              \
                                              GSA Peer Review Team Issues Results of
                                              Quality Control Review of OIG Office of Audits


                                                          The Inspector General’s Office of the U.S. General
                                                          Services Administration completed its quality control
                                                          peer review of our Office of Audits’ operations. The
                                                          objective of the review was to determine whether our
                                                          Office of Audits’ internal quality control system was
                                                          operating effectively to provide reasonable assurance
                                                          that established policies, procedures, and applicable
                                                          auditing standards were being followed in its audit
                                                          work. The peer review team identified and assessed
                                                          the following significant elements of the OIG’s internal
                                                          quality control system: (1) written policies and
                                                          procedures, (2) staff qualifications, (3) supervision, and
                                                          (4) the quality assurance review program. The GSA
                                                          team concluded that the system of quality control used
                                                          by our office was designed in accordance with
                                                          standards established by the President’s Council on
                                                          Integrity and Efficiency and provided the OIG with
                                                          reasonable assurance that it was in conformance with
                                                          professional standards in the conduct of its audits. As
                                                          a result, the team made no recommendations. We are
                                                          proud of the results of this review and are committed
                                                          to continuing to provide quality audit work to the
                                                          Corporation.




To promote a better understanding of the mission and
role of the Office of Inspector General at the FDIC, we
developed and disseminated an informational brochure
that we are sharing with members of the Congress
and others with whom we conduct our daily work. For
a copy of the brochure, contact us at the address
listed on the inside back cover of this report.




                                                                  43
Results



                                                                                                                              Figure 1
                                                  Reports Issued and Investigations Closed
                                                                                                                                         200
                                                                                                                                         180
                                  Legend
                                                                                                                                         160
                             ●    Oct 96–Mar 97
                                                                                                                                         140
                             ●    Apr 97–Sep 97
                                                                                                                                         120
                             ●    Oct 97–Mar 98
                                                                                                                                         100
                             ●    Apr 98–Sep 98
                                                                                                                                          80
                             ●    Oct 98–Mar 99
                                                                                                                                          60
                                                                                                                                          40
                                                                                                                                          20
                                                                                                                                           0
                                                                     Audits and Evaluations             Investigations
                              Figure 2




  Questioned Costs/Funds Put to Better Use
        ($ millions)                                                                    30        Legend
                                                                                        25    ●   Oct 96–Mar 97
                                                                                        20    ●   Apr 97–Sep 97
                                                                                        15    ●   Oct 97–Mar 98
                                                                                        10    ●   Apr 98–Sep 98




                                                                                                                          Figure 3
                                                                                         5    ●   Oct 98–Mar 99
                                                                                         0
                                                  Audits and Evaluations



                                         Fines, Restitution, and Monetary Recoveries Resulting from OIG Investigations
                                               ($ millions)                                                              30


                                                                                                                         25

                           Legend                                                                                        20
                       ●   Oct 96–Mar 97
                       ●   Apr 97–Sep 97                                                                                 15
                       ●   Oct 97–Mar 98
                       ●   Apr 98–Sep 98                                                                                 10
                       ●   Oct 98–Mar 99
                                                                                                                          5

                                                                                                                          0




                                                                     44
  Table 2
  Nonmonetary Recommendations




                                                                                                      October 1, 1998 –
                                                                                                      March 31. 1999
       April 1997–September 1997                                  110
       October 1997–March 1998                                     52
       April 1998–September 1998                                   77
       October 1998–March 1999                                    133



                                                                   Table 3
                                                                   OIG Review of Legislation and Regulations



                                                                        The OIG reviewed the following regulations and formal
Highlights from Report on                                               Statements of Policy, which are published in the
1998 OIG Performance Goals                                              Federal Register.

                                                                        Deposit Insurance            Joint Accounts and “Payable-on-
  The OIG issued an internal report on March 23, 1999, citing           Regulations                  Death” Accounts
  achievements under its 1998 Performance Plan. The 1998                Part 328                     Advertisement of Membership
  plan contained the following goals:                                   Final Rule                   Revising the Leverage and Risk-Based
                                                                                                     Capital Rules to Eliminate Certain
     • The OIG will develop quality and timely products that                                         Interagency Differences
       add value to the Corporation’s operations.                       Part 326                     Know Your Customer
     • The OIG will sustain lines of communication between              Part 326                     Activities and Investments of Insured
       OIG staff and the client to support positive working                                          State Banks
       relationships.                                                   Statement of Policy          Tax Allocation in a Holding Company
     • The OIG will foster a work environment that supports,                                         Structure
       challenges, and respects its employees.
     • The OIG will maintain a streamlined, dynamic
       operation that maximizes the ability of OIG staff to
       perform their work.
     • The OIG will pursue opportunities to expand its
       contribution to the FDIC and the Inspector General
       community.

  These 5 goals included 54 targets to measure progress.
  Of the 54, 23 were output-based (i.e., had a quantitative or
  specific measure) and 31 were not quantitative but
  involved initiating or maintaining a function or activity. In
  1998, 18 of the 23 output targets were achieved. All 31
  non-quantitative targets had activity reported to maintain
  existing functions or initiate functions.

  The OIG will continue to monitor progress and report
  results of achieving the goals set forth in its 1999
  Performance Plan.




                                                                  45
                              Reader’s Guide to IG Act                                The next step in the process is for
                              Reporting Terms                                         FDIC management to make a
                                                                                      decision about the questioned
                              What Happens When Auditors                              costs. The IG Act describes a
                              Identify Monetary Benefits                              “management decision” as the
                              Our experience has found that the                       final decision issued by manage-
                              reporting terminology outlined in                       ment after evaluation of the
                              the Inspector General Act of 1978,                      finding(s) and recommendation(s)
                              as amended, often confuses                              included in an audit report,
                              people. To lessen such confusion                        including actions deemed to be
     and Requirements

                              and place these terms in proper                         necessary. In the case of
                              context, we present the following                       questioned costs, this manage-
     Reporting Terms


                              discussion:                                             ment decision must specifically
                                                                                      address the questioned costs by
                              The Inspector General (IG) Act                          either disallowing or not
                              defines the terminology and                             disallowing these costs. A
                              establishes the reporting                               “disallowed cost,” according to
                              requirements for the identification                     the IG Act, is a questioned cost
                              and disposition of questioned costs                     that management, in a manage-
                              in audit reports. To understand                         ment decision, has sustained or
                              how this process works, it is                           agreed should not be charged to
                              helpful to know the key terms and                       the government.
                              how they relate to each other.
                                                                                      Once management has disallowed
                              The first step in the process is                        a cost and, in effect, sustained the
                              when the audit report identifying                       auditor’s questioned costs, the last
                                                  t
                              questioned costs is issued to                           step in the process takes place
                              FDIC management. Auditors                               which culminates in the “final
                              question costs because of an                            action.” As defined in the IG Act,
                              alleged violation of a provision of a                   final action is the completion of all
                              law, regulation, contract, grant,                       actions that management has
                              cooperative agreement, or other                         determined, via the management




What Happens When Auditors
Identify Monetary Benefits?

                              agreement or document governing                         decision process, are necessary to
                              the expenditure of funds. In                            resolve the findings and
                              addition, a questioned cost may be                      recommendations included in an
                              a finding in which, at the time of                      audit report. In the case of
                              the audit, a cost is not supported                      disallowed costs, management will
                              by adequate documentation; or, a                        typically evaluate factors beyond
                              finding that the expenditure of                         the conditions in the audit report,
                              funds for the intended purpose is                       such as qualitative judgements of
                              unnecessary or unreasonable.                            value received or the cost to
                                                                                      litigate, and decide whether it is in
                                                                                      the Corporation’s best interest to
                                                                                      pursue recovery of the disallowed
                              t
                               It is important to note that the OIG does not always
                              expect 100 percent recovery of all costs questioned.

                                                        46
costs. The Corporation is
responsible for reporting the
disposition of the disallowed costs,
the amounts recovered, and             Index of Reporting Requirements
amounts not recovered.                 Inspector General Act of 1978, as amended

Except for a few key differences,
the process for reports with                  Reporting Requirement                                                    Page
recommendations that funds be
put to better use is generally the        ●   Section 4(a)(2)         Review of legislation and regulations               45
same as the process for reports
with questioned costs. The audit          ●   Section 5(a)(1)         Significant problems, abuses, and deficiencies   8 - 29
report recommends an action that
will result in funds to be used           ●   Section 5(a)(2)         Recommendations with respect to significant problems,
more efficiently rather than                                          abuses, and deficiencies                        8 - 29
identifying amounts that may need
to be eventually recovered.               ●Section   5(a)(3)          Recommendations described in previous semiannual
Consequently, the management                                          reports on which corrective action has not been
decisions and final actions address                                   completed                                       48 - 50
the implementation of the
recommended actions and not the           ●   Section 5(a)(4)         Matters referred to prosecutive authorities         31
disallowance or recovery of
costs.the implementation of the           ●   Section 5(a)(5) and     Summary of instances where requested information
recommended actions and not the               and 6(b)(2)             was refused                                      56
disallowance or recovery of costs.
                                          ●   Section 5(a)(6)         Listing of audit reports                         51- 53

                                          ●   Section 5(a)(7)         Summary of particularly significant reports      8 - 29

                                          ●   Section 5(a)(8)         Statistical table showing the total number of audit
                                                                      reports and the total dollar value of questioned
                                                                      costs                                               54

                                          ●   Section 5(a)(9)         Statistical table showing the total number of audit
                                                                      reports and the total dollar value of recommendations
                                                                      that funds be put to better use                      55

                                          ●   Section 5(a)(10)        Audit recommendations more than 6 months old for
                                                                      which no management decision has been made       56

                                          ●   Section 5(a)(11)        Significant revised management decisions during the
                                                                      current reporting period                            56

                                          ●   Section 5(a)(12)        Significant management decisions with which the OIG
                                                                      disagreed                                         56




                                                      47
                                                                                                  categorized the status of these
                                                                                                  recommendations as follows:

                                                                                                  Management Action in Process
             Inspector General Act of 1978, as amended




                                                                                                  (12 recommendations from
                                                                                                  5 reports)
             Statistical Information Required by the




                                                                                                  Management is in the process of
                                                                                                  implementing the corrective action
                                                         Table I.1                                plan, which may include modifi-
Appendix I




                                                         Significant Recommendations              cations to policies, procedures,
                                                         from Previous Semiannual Reports         systems or controls; issues
                                                         on Which Corrective Actions              involving monetary collection; and
                                                         Have Not Been Completed                  settlement negotiations in process.

                                                         This table shows the corrective          Litigation
                                                         actions management has agreed to         (21 recommendations from
                                                                                                  4 reports)
                                                         implement but has not completed,
                                                                                                  Each case has been filed and is
                                                         along with associated monetary           considered “in litigation.” The
                                                         amounts. In some cases, these            Legal Division will be the final
                                                         corrective actions are different from    determinant for all items so
                                                         the initial recommendations made         categorized.




                                                         in the audit reports. However, the
                                                         OIG has agreed that the planned
                                                         actions meet the intent of the initial
                                                         recommendations. The information
                                                         in this table is based on information
                                                         supplied by FDIC’s Office of Internal
                                                         Control Management (OICM).
                                                         These 33 recommendations from
                                                         9 reports involve monetary amounts
                                                         of over $15.3 million. OICM has




                                                                          48
                                                                                      Table I.1
Significant Recommendations from Previous Semiannual Reports
on Which Corrective Actions Have Not Been Completed




Report Number,                         Significant           Brief Summary of Planned
Title                                  Recommendation        Corrective Actions and
and Date                               Number                Associated Monetary Amounts

Management Action In Process

96-103                                 1                     Periodically compare initial Division of Resolutions least cost
Follow-up Audit: Cost Estimate                               estimates with current Division of Finance records of actual
Process for Bank Resolutions                                 liquidation activity and evaluate instances where wide variances,
September 13, 1996                                           exist for the purpose of identifying recurring causes of the variances
                                                             that should be considered in future least cost determinations.

Not Numbered                           1                     Implement policies and procedures that require cases submitted to the
Leasing and Renovation Activities                            Board of Directors be standardized.
March 18, 1998
                                       2                     Include in the Division of Administration’s cases to the Board of
                                                             Directors significant changes to the standard lease provisions.

                                       3                     Develop a procedure to ensure Chief Operating Officer pre-approval of
                                                             planned leases exceeding the 5-year core staffing projections.

                                       4                     Develop guidance for completing the lease extension cost comparison.

                                       5                     Revise the current standard lease document to include a “Reduction in
                                                             Services” clause.

                                       6                     Include a provision in the Leasing Policy Manual that requires the
                                                             tenant and landlord to sign and date lease amendments at the time
                                                             the lease amendment is executed.

98-052                                 2                     Perform an alternative and cost/benefit analysis to determine which
Implementation of Electronic                                 alternative offers the most beneficial method for providing FDIC's
Signatures to Support the                                    electronic signature requirements that comply with the National
Electronic Travel Voucher                                    Institute of Standards and Technology.
Payment System (ETVPS) and
Other Planned Applications
June 30, 1998

98-072                                 2                     Develop enforceable sanctions for noncompliance.
Legal Division's Fee Bill Review and
Approval Process                       4                     Strengthen administrative procedures for maintaining copies of files
July 13, 1998                                                documenting Legal Services Agreements, amendments, services
                                                             requiring advanced approval, and other pertinent documents.

                                       5                     Periodically and randomly require law firms to submit copies of time
                                                             sheets to support fees billed.

98-080                                 1                     Update the Acquisition Policy Manual to require that the
DIRM Operating Expenses                                      Division of Administration's Acquisition Services Branch employees
September 15, 1998                                           ensure that future purchase requisitions for on-line services are
                                                             reviewed and authorized by the Library Services Unit.

                                                        43
                                                        49
                                                                                    Table I.1
Significant Recommendations from Previous Semiannual Reports
on Which Corrective Actions Have Not Been Completed




Report Number,                        Significant           Brief Summary of Planned
Title                                 Recommendation        Corrective Actions and
and Date                              Number                Associated Monetary Amounts

Litigation

95-032                                5                     Recover $5,259,285 from the association for noncompliance with
Local America Bank, F.S.B.,                                 the tax benefits provisions of the assistance agreement.
Assistance Agreement
March 24, 1995

96-014                                1, 4-16               Recover $4,526,389 of assistance paid to Superior Bank.
Superior Bank, F.S.B. Assistance
Agreement, Case Number C-389c
February 16, 1996

97-080                                8                     Disallow the improperly paid late fees and special assessments
FDIC Property Tax Reassessments                             totaling $4,385,089 and initiate action to prevent future payments
and Refunds, Western Service Center                         of such amounts.
July 17, 1997

98-026                                2, 3, 4, 6            Recover $1,220,470 of assistance paid to Superior Bank.
Assistance Agreement Audit of
Superior Bank, Case Number,           11                    Compute the effect of understated Special Reserve Account for
C-389c                                                      Payments in Lieu of Taxes and remit any amounts due to the FDIC.
March 9, 1998




                                                       50
                                                                                       Table I.2
Audit Reports Issued by Subject Area




                                                                             Questioned Costs
Audit Report Number                                                                                     Funds Put to
and Date              Title                                          Total                Unsupported     Better Use

Supervision and Consumer Affairs

98-086                Implementation of the Risk-Focused
11-5-98               Examination Process

98-089                DOS Coordination of Examinations
11-19-98              with State Banking Authorities in the
                      Kansas City Region

99-005                Material Loss Review – The Failure of
1-22-99               BestBank, Boulder, Colorado

99-013                DCA Policy for Determining Examination
3-15-99               Frequency, Scope, and Priority

Award, Administration, and Oversight of Contracts and Agreements

98-084                The Application Support Company                $295,621             $68
10-30-98

99-001                AEW’s Performance Under Contract                                                    $150,000
1-8-99                Number 700-92-0016-003

99-002                Supplemental Special Servicing Fees            $24,223
1-8-99                Billed for Securitizations 1992-M3,
                      1992-C5, 1994-C2, 1992-C1, & 1992-M2

A99-003               Shelter Cove Property Management Contracts     $74,633              $53,510
1-11-99

99-006                Legal Fees Paid to Comey, Boyd & Luskin        $11,272
1-25-99

99-007                Legal Fees Paid by FDIC & RTC to               $87,632              $73,966
1-20-99               Lowe & Associates

99-008                Wendover Funding’s Loan-Servicing Contracts
1-25-99

99-009                FDIC’s Food Services Contract
2-5-99                with Aramark Services, Inc.




                                                                51
                                                                                      Table I.2
Audit Reports Issued by Subject Area




                                                                           Questioned Costs
Audit Report Number                                                                                 Funds Put to
and Date               Title                                           Total          Unsupported    Better Use

99-012                 Legal Fees Paid by RTC to                       $61,110           $44,407
2-11-99                Salem, Saxon & Nielsen

99-014                 Legal Fees Paid by RTC to Brobeck,              $93,289           $19,313
3-12-99                Phleger & Harrison

99-015                 Legal Fees Paid by FDIC to Brobeck,             $40,340           $4,884
3-12-99                Phleger & Harrison

Asset Servicing and Liquidation

99-010                 Ocwen Federal Bank's Servicing of               $477,573          $461,591
2-12-99                RTC Mortgage Trust, 1994-S2

99-019                 RTC Mortgage Trust 1995 NP3-3                   $9,660
3-26-99

98-083                 Securitization Credit Enhancement               $385,727
10-2-98                Reserve Fund 1992-CHF

98-090                 Credit Enhancement Reserve Fund for             $230,219          $6,707
11-24-98               Securitization Transaction 1993-03

99-004                 Payment Retention Funds Established
1-12-99                by the Resolution Trust Corporation
                       for Securitized Transactions Serviced by
                       Lomas Mortgage USA

99-018                 Securitization Credit Enhancement               $68,105
3-31-99                Reserve Fund 1992-6

Financial and Management Information Systems

98-085                 Call Processing System
10-26-98

D98-087                Information Systems Security - Dallas
10-22-98

99-011                 Time and Attendance Processing System
2-17-99                Development Project II

99-016                 Cryptographic Infrastructure Design
3-19-99

99-020                 Follow-on Audit of FDIC’s General
3-31-99                Examination System Development Project



                                                                  52
                                                                                         Table I.2
Audit Reports Issued by Subject Area




                                                                              Questioned Costs
Audit Report Number                                                                                    Funds Put to
and Date                Title                                             Total          Unsupported    Better Use

Corporate Activities and Administration

98-088                  Processing of Adverse Personnel Actions
10-30-98

99-017                  Semiannual Report of FDIC Board Members’
3-18-99                 Travel Voucher Reviews – September 1998 through
                        February 1999

Totals for the Period                                                     $1,859,404        $664,446   $150,000




                                                                  53
                                                                                                 Table I.3
Audit Reports Issued with Questioned Costs




                                                                                                             Questioned Costs
                                                                               Number of
                                                                               Reports               Total               Unsupported



A.    For which no management decision has been
      made by the commencement of the reporting period.                        1                     $116,577a           0

B.    Which were issued during the reporting period.                           13                    $1,859,404          $664,446

Subtotals of A and B                                                           14                    $1,975,981          $664,446

C.    For which a management decision was made
      during the reporting period.                                             14                    $1,975,981          $664,446

      (i) dollar value of disallowed costs.                                    14                    $1,891,201b, c      $568,082

      (ii) dollar value of costs not disallowed.                                4d                   $110,919            $96,364

D.    For which no management decision has been
      made by the end of the reporting period.                                 0                     0                   0

      Reports for which no management decision was made
      within 6 months of issuance.                                             0                     0                   0
a On report A98-082, a management decision was not reached during the previous reporting period because a legal opinion was being
  sought for recommendations 1 and 3. During this reporting period, management decided to disallow the question costs pertaining to
  those recommendations totaling $116,577.
b On report A98-082, management made a revised management decision during this reporting period on recommendation 2. Management
  decided to disallow the $26,139 that it had allowed during the previous reporting period.
c On report 99-018, a loan servicer reviewed an OIG finding for $68,105 in incorrect interest charges for one securitization transaction and
  did not dispute the finding. The loan servicer agreed to reimburse the FDIC a total of $304,558. Of this amount, $167,631 related to the
  securitization 1992-06 (covered by this audit) and $136,927 related to securitization 1992-09. Management chose to disallow $68,105.
  The total disallowed costs include only the $68,105.
d The four reports included on the line for costs not disallowed are also included in the line for costs disallowed, since management did
  not agree with some of the questioned costs.




                                                                     54
                                                                        Table I.4
Audit Reports Issued with Recommendations
for Better Use of Funds




                                                                          Number of
                                                                          Reports     Dollar Value



A.   For which no management decision has been made by the
     commencement of the reporting period.                                  0         0

B.   Which were issued during the reporting period.                         1         $150,000

Subtotals of A and B                                                        1         $150,000

C.   For which a management decision was made during
     the reporting period.                                                  1         $150,000

     (i) dollar value of recommendations that were agreed to                1         $150,000
         by management

         -    based on proposed management action.                          1         $150,000

         -    based on proposed legislative action.                         0         0

     (ii) dollar value of recommendations that were not
          agreed to by management.                                          0         0

D.   For which no management decision has been made by the end of the       0         0
     reporting period.

     Reports for which no management decision was made                      0         0
     within 6 months of issuance.




                                                               55
Table I.5
Status of OIG Recommendations Without Management Decisions

During this reporting period, there were no recommendations without management decisions.




Table I.6
Significant Revised Management Decisions

During this reporting period, there were no significant revised management decisions.




Table I.7
Significant Management Decisions with Which the OIG Disagreed

There was a partial disagreement with one of our recommendations in the BestBank report, and we believe this disagreement to be
significant. We recommended that the director of DOS develop and implement a policy where examiners take prompt action to address
allegations of potential wrongdoing, including referring such allegations to the regional director, regional counsel, and, in certain circum-
stances, the OIG. DOS management agreed to revise or supplement existing guidance in section 9.2 of the DOS Manual of Examination
Policies to address handling of allegations of potential wrongdoing, including requiring regional office referrals when examiners receive such
allegations. However, DOS management does not agree with that portion of our recommendation concerning referring allegations to the
OIG. DOS believes that if there is a regulatory problem, DOS and the Legal Division can handle it; if it is a criminal problem, the Federal
Bureau of Investigation is set up to handle that. Further, DOS’s view is that investigations of alleged wrongdoing by open banks or in open
banks, in most instances, is a program responsibility of DOS, not the OIG.

The OIG has the responsibility, pursuant to the Inspector General Act Amendments of 1988, to carry out a comprehensive nationwide
program for the prevention, detection, and investigation of criminal or otherwise prohibited activities affecting the programs and operations
of the FDIC. In the case of BestBank, the allegation suggested possible criminal obstruction of the conduct of an FDIC examination, which
we believe should be investigated by the FDIC OIG.

Table I.8
Instances Where Information Was Refused

During this reporting period, there were no instances where information was refused.




                                                                      56
Reports Issued by the Office of Congressional Relations
and Evaluations




                              Report
                              Number        Title                                                  Date



                              EVAL-98-003   The Division of Resolutions and Receiverships'
                                            Reporting of Receivership Termination Activity
                                            in FDIC Quarterly Performance Reports            November 23, 1998

                              EVAL-98-004   Analysis of the Legal Division's Caseload        December 14, 1998

                              EVAL-99-001   Federal Deposit Insurance Corporation's
                                            Processing of Freedom of Information
              Appendix II




                                            Act Requests                                      February 26, 1999

                              EVAL-99-002   Management and Buyout of the
                                            River Ridge Branch Lease                           March 26, 1999

                              EVAL-99-003   Division of Supervision Case Manager
                                            Program - Views of Those Who Are
                                            Implementing It                                    March 31, 1999




                                                      57
               OIG Completion of RTC Contractor Reviews




                                                          Before the Resolution Trust
                                                          Corporation (RTC) sunset, the OIG
Appendix III




                                                          agreed to assume responsibility for
               Statistical Information Related to




                                                          completing the reviews of RTC
                                                          contractors initiated or planned by
                                                          an RTC management oversight
                                                          unit. OIG work included resolution
                                                          of more than 1,000 recommen-
                                                          dations in the backlog of
                                                          unresolved reports transitioned to
                                                          the FDIC on January 1, 1996, and
                                                          340 recommendations from reports
                                                          generated by OIG Office of Quality
                                                          Assurance and Oversight. The
                                                          tables below present information
                                                          related to these OIG activities as of
                                                          March 31, 1999.




                                                          This information is not included
                                                          with audit statistics in appendix I of
                                                          this report because this work was
                                                          initiated by RTC management,
                                                          using agreed-upon procedures with
                                                          independent public accountants, to
                                                          meet management’s need for
                                                          contractor oversight and contract
                                                          closeout.




                                                                          58
                                                                                                     Table III.1
Status of Management Actions on Recommendations Contained
in RTC Contractor Expiration Review Reports Issued Since
January 1, 1996




                                                                                                                   Questioned Costs
                                                                               Number of                           Disallowed
                                                                               Recommendations                     ($ in millions)



Total Management Actions Required                                              340                                 $11.44
Management Actions Completed:

A.      Prior to This Reporting Period                                         332                                 $8.58

B.      This Reporting Period                                                  0                                   $0.00
Subtotals of A and B                                                           332                                 $8.58

Management Actions Remaining to Be Completed
as of March 31, 1999                                                           8                                   $2.86




                                                                                                     Table III.2
Status of Management Actions on Recommendations
Contained in RTC Contractor Expiration Review Reports Issued
Before January 1, 1996a



                                                                               Questioned Costs                     Other Disallowed
                                                    Number of                  Disallowed                           Costs
                                                    Recommendations            ($ in millions)                      ($ in millions)



Total Management Actions Required                   1,545 b                    $85.98 b                             $27.30
Management Actions Completed
as of March 31, 1999                                1,539                      102.93                               $13.14
Management Actions Remaining to Be
Completed as of March 31, 1999                      6                          $1.52 c                              $0.00



a    Statistics provided by and derived from FDIC Office of Internal Control Management.
b    Total Management Actions Required as initially established pursuant to a joint OIG/management action plan. Management has
     identified retroactive adjustments not reflected in the total. We show those adjustments as Management Actions Completed.
c    The $1.52 million in disallowed costs is considered in litigation. The Legal Division will be the final determinant for all items so
     categorized.




                                                                        59
IN MEMORIUM
Ms. Bonnie Tucker




                    The OIG family was deeply           Publishing Company in Tulsa,
                    saddened by the loss of             Oklahoma. Bonnie earned a
                    Ms. Bonnie M. Tucker who            Bachelor of Science degree in
                    passed away April 11, 1999.         Business Administration from
                    Bonnie’s commitment, profes-        the University of Tulsa.
                    sionalism, and friendliness were
                    an inspiration to all of us.        Bonnie is survived by her sons
                                                        David Tucker of Memphis,
                    Bonnie joined the OIG staff in      Tennessee; Daryl Tucker and
                    1989 and worked with the            wife, Tina, of Ochelata,
                    Office of Audits. She worked        Oklahoma; Kevin Tucker and
                    on various types of audits that     wife, Patricia, of Sachse, Texas;
                    recently included the FDIC          daughter Susan Vaughn and
                    Financial Statement Audit; a        husband, Darren, of Collinsville,
                    material loss review; and audits    Oklahoma; sister Dr. Betty Horn
                    of contractor performance,          of North Haven, Connecticut;
                    information systems, and            brothers Robert Beazer of
                    personnel action processing.        Nashville, Tennessee; and John
                    Prior to her service at the FDIC,   Gammon of Oakland, California;
                    Bonnie served as an auditor         eight grandchildren; one niece;
                    with the Defense Contract Audit     and three nephews. Bonnie’s
                    Agency and as a staff               pleasant demeanor and positive
                    accountant for PennWell             outlook will be missed.




                                  60
